<html>
<title> - DEVELOPING AND DEPLOYING ADVANCED CLEAN ENERGY TECHNOLOGIES</title>
<body><pre>[Senate Hearing 115-111]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-111

                   DEVELOPING AND DEPLOYING ADVANCED
                       CLEAN ENERGY TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov

                               __________
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-301PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                  
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

             SHELLEY MOORE CAPITO, West Virginia, Chairman
JAMES M. INHOFE, Oklahoma            SHELDON WHITEHOUSE, Rhode Island
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
JOHN BARRASSO, Wyoming (ex officio)  THOMAS R. CARPER, Delaware (ex 
                                         officio)
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 25, 2017
                           OPENING STATEMENTS

Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     1
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     2
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     4

                               WITNESSES

Anderson, Brian, Director, WVU Energy Institute, West Virginia 
  University.....................................................    16
    Prepared statement...........................................    18
Begger, Jason, Executive Director, Wyoming Infrastructure 
  Authority......................................................    24
    Prepared statement...........................................    26
    Responses to additional questions from:
        Senator Barrasso.........................................    30
        Senator Whitehouse.......................................    30
Bohlen, Steve, Global Security E-Program Manager, Lawrence 
  Livermore National Laboratory..................................    33
    Prepared statement...........................................    35
    Response to an additional question from Senator Whitehouse...    43
Khaleel, Moe, Associate Lab Director for Energy And Environmental 
  Sciences, Oak Ridge National Lab...............................    49
    Prepared statement...........................................    51
    Responses to additional questions from:
        Senator Barrasso.........................................    62
        Senator Whitehouse.......................................    64
Pasamehmetoglu, Kemal, Associate Laboratory Director, Nuclear 
  Science & Technology Directorate, Idaho National Laboratory....    68
    Prepared statement...........................................    70
    Responses to additional questions from:
        Senator Barrasso.........................................    81
        Senator Whitehouse.......................................    82
        
        
 .
 HEARING ON DEVELOPING AND DEPLOYING ADVANCED CLEAN ENERGY TECHNOLOGIES

                              ----------                              


                         TUESDAY, JULY 25, 2017

                               U.S. Senate,
         Committee on Environment and Public Works,
                                Subcommittee on Clean Air  
                                        and Nuclear Safety,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Shelley Moore 
Capito (chairwoman of the subcommittee) presiding.
    Present: Senators Capito, Whitehouse Inhofe, Boozman, 
Fischer, Ernst, Merkley, Gillibrand, and Markey.
    Also present: Senators Barrasso and Carper.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. The Committee will come to order. The 
Ranking Member is en route, I believe, and so, in the interest 
of everybody's time, I am going to go ahead and begin my 
statement.
    Thank you all for being here today. Thank the Subcommittee.
    I will begin by obviously recognizing myself for an opening 
statement and then Ranking Member Whitehouse when he appears.
    Senator Alexander and Chairman Barrasso will then introduce 
witnesses from their home States.
    Our hearing today will provide an opportunity for the 
members of this Subcommittee to learn more about advanced power 
generation technologies that will improve air quality and 
reduce carbon emissions.
    The development and commercial deployment of these 
technologies will inform this Committee's consideration on 
clean air and nuclear safety regulatory and legislative 
proposals, and oversight of regulated agencies.
    Our panel of expert witnesses has a diverse and deep wealth 
of experience dealing with research and development of advanced 
coal and nuclear technologies across the private and public 
sectors and academia.
    I am particularly happy that Brian Anderson, who is the 
Director of the Energy Institute at West Virginia University, 
has joined us today. Dr. Anderson is extremely knowledgeable on 
fossil technology, research, development, and commercialization 
across academia and the national lab system and the private 
sector, so I look forward to hearing his insights.
    The Federal Government has played a role in incubating 
important energy technologies for decades with the goal of 
commercial viability. These days, this development in coal and 
nuclear technologies is as important as ever.
    The coal-fired and nuclear power generation sectors provide 
the core of this Country's baseload electricity, and both are 
under serious pressure as the result of a confluence of 
regulations, electric market inefficiencies, and competition 
from cheap natural gas.
    Plants powered by both fuels are currently either being 
shuttered or pushed beyond their original planned ends of life 
at the cost of foregone investment, lost jobs, higher electric 
rates, and economic harm to upstream and downstream industries.
    However, there is no clear reliable baseload alternative to 
these technologies. New high-efficiency coal plants with 
cleaner emissions streams to facilitate carbon capture and 
utilization, the development of advanced carbon-based materials 
and manufacturing processes, and the employment of advanced 
nuclear reactor designs that are safer and more efficient than 
the cold war era designs that will be replaced are all 
essential developments to ensuring the reliability of the grid.
    The U.S. has a vast and diverse energy resource and a deep 
well of scientific and engineering talent. But instead of using 
these assets to great effect, over the last several years we 
have let those skills atrophy, leaving the major advances in 
these markets to foreign competitors due to a lack of policy 
vision.
    As we consider agency regulations and congressional 
legislation dealing with emission standards and energy 
permitting, we must consider whether we are protecting 
ourselves into harm's way. If the Federal Government is funding 
advanced fossil and nuclear technologies with an eye to getting 
these designs into the marketplace, but is simultaneously 
creating regulatory structures that are not flexible or 
expeditious enough, we may actually smother those taxpayer 
investments in the crib. This will be a negative feedback loop, 
as unrealized reductions in emissions drive demands for tighter 
regulations.
    West Virginia has both a great story to tell when it comes 
to the research and development of this technology, and a great 
deal at stake when it comes to the future of energy markets and 
regulation. We are a major exporter of energy, including 
electricity, to our neighboring States, and that sector is 
under significant pressure.
    The State is home to West Virginia University, which Dr. 
Anderson is representing, and the National Energy Technology 
Lab in Morgantown. Their presence has also attracted innovative 
and manufacturing companies researching more efficient power 
plant designs, fuel cells, carbon capture technologies and 
other technologies that will contribute to a manufacturing 
renaissance achieved with lower emissions of carbon dioxide and 
air pollutants.
    Given the stakes of this policy debate for my State of West 
Virginia and the entire Country, Congress must be well informed 
about the development of new technologies in these fields, what 
they can and cannot deliver in terms of efficiencies, and how 
realistic their commercial viability is. That is the only way 
we can craft legislation and create meaningful oversight of 
Federal agencies to achieve the best outcomes for American 
workers, families, and environmental quality.
    Today's hearing will support that mission by giving voice 
to a panel of this Nation's foremost experts in the field. I 
look forward to hearing from our witnesses and the dialog from 
our members.
    I will now yield and welcome our Ranking Member, Senator 
Whitehouse, for his 5-minute opening statement.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman Capito. I am 
delighted that we are having this hearing and want to welcome 
my Chairman in the HELP Committee, Chairman Alexander, here.
    Chairman Alexander invited me to testify in his Energy 
Appropriations Subcommittee last year, and he and I have worked 
together on promoting clean energy solutions, so I am looking 
forward to his testimony. His State is the home of Oak Ridge 
Lab, one of 17 exceptional national laboratories that we have 
spread across 14 States, employing thousands of scientists, and 
very strongly supporting the scientific consensus that climate 
change is real and that something needs to be done about it.
    Along with our terrific State universities, these 
laboratories are centers of innovation. They have helped us 
explain photosynthesis, discovered 16 periodic elements, 
created the modern seatbelt, developed flu vaccines, redefined 
cancer treatment, and helped develop the Internet. We can be 
extremely proud of our national labs and of the relationships 
they have with our greatest universities.
    Today we are here to learn about developments in homegrown 
clean energy technologies like carbon capture utilization and 
storage, and advanced nuclear, technologies that hold promise 
to transition the U.S. to a carbon-free future.
    Of course, funding these labs is important. I won't dwell 
on this, but the President's budget is very inconsistent with 
the bipartisan support for our national laboratories, and I 
hope that our appropriators will see the wisdom of continuing 
to support the national labs.
    Carbon capture research and nuclear programs have 
bipartisan support here in Congress as well. I recently joined 
Senators Heitkamp, Barrasso, and Capito on a bipartisan carbon 
capture utilization and storage bill to provide tax incentives 
to avoid carbon emissions. Senators Booker and Duckworth on 
this Committee are also cosponsors. Chairman Capito, Senator 
Inhofe, and other EPW colleagues also have a bipartisan 
advanced nuclear bill to reform the Nuclear Regulatory 
Commission licensing process for advanced reactors whose 
technology is being developed in our national labs. And last 
year Senator Alexander and I wrote an op-ed in The New York 
Times on the importance of our existing nuclear fleet to 
carbon-free energy and our effort to address climate change.
    New energy technologies can move us closer to energy 
security, increase our global competitiveness, and improve the 
reliability of our energy grid. But what matters most to me is 
protecting my home State of Rhode Island, which is on the front 
lines of climate change. In our ocean State, we have almost 400 
miles of beautiful coastline. West Virginia has beautiful 
things, but not much coastline.
    Senator Capito. Not much.
    Senator Whitehouse. Everyone in Rhode Island lives less 
than a half hour from the shore. Warming, acidifying, and 
rising oceans endanger our Rhode Island coasts. Rhode Island's 
Coastal Resources Management Council projects sea levels to 
rise by between 9 and 12 feet along our shores by 2100 if we 
continue to do nothing about carbon emissions. That submerges 
downtown Providence, our capital city, and it reshapes our 
coastline into a new Rhode Island archipelago.
    Innovative clean energy solutions to reduce emissions and 
stave off those disastrous effects are vital to me. I remain 
committed to reaching across the aisle and finding common 
ground in these pursuits. I look forward to hearing from our 
witnesses today.
    And as we recognize Chairman Alexander, let me just say my 
trip to Oak Ridge was really remarkable. The people you have 
working there are extraordinary and the presentation that they 
give on climate change is extraordinarily compelling, well 
researched, and founded in the real science.
    Thank you.
    Senator Capito. Thank you, Senator.
    We will begin the first panel. Our colleague, very well 
known to all of us, from Tennessee, Senator Alexander will be 
here to introduce the witness from Oak Ridge National 
Laboratory and to make some comments.
    Welcome, Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Madam Chairman and Senator 
Whitehouse. Thank you for allowing me to introduce the witness 
and to make a few remarks beforehand.
    As Senator Whitehouse said, he testified before our Energy 
and Water Appropriations Committee recently and, in a way, I am 
returning the favor, so thank you for that.
    I am glad to be back before the Committee. Senator Carper 
and I were co-chairmen of the Clean Air Subcommittee, worked on 
it together for a number of years.
    And so far as funding for the labs go, I think you will be 
pleased to know that the Energy and Water Appropriations bill 
approved last week, for the second consecutive year, had a 
record level of appropriated funding for the Office of Science, 
which funds the 17 national labs that we have.
    Our Country has 99 nuclear reactors. They are capable of 
producing 100,000 megawatts of clean, reliable electricity with 
zero carbon emissions. If we were to close those 99 reactors, 
which provide more than 60 percent of our Country's carbon-free 
electricity, and replace them with natural gas plants, which 
history has shown is what usually happens when nuclear power is 
replaced, the emissions produced by these new natural gas 
plants would be the equivalent of placing nearly 118 million 
new cars on the road. That is more than all U.S. passenger cars 
on the road today.
    If you are concerned about climate change, as I am, that 
possibility is alarming.
    While we normally think of clean nuclear power when we talk 
about climate change, it is more fundamental than that; it is 
also about jobs. The nuclear industry employs 100,000 people. 
They are high-quality, good-paying, career-long jobs. In South 
Carolina and Georgia, the four reactors currently under 
construction employ about 10,000 Americans.
    If you are concerned about unemployment in the communities 
that support our existing nuclear reactor sites, the thought of 
losing these jobs is alarming.
    Nuclear power is also about reliable electricity. Reactors 
operate over 90 percent of the time and provide reliable 
baseload power. We expect our lights to turn on in the morning 
and our air conditioners to work in the evening. Our 
manufacturers, which consume more than 30 percent of the 
Nation's energy, rely on electricity to produce goods 24 hours 
a day. Without reliable electricity, none of this would be 
possible.
    So if you are concerned about manufacturing and supporting 
the 12 million manufacturing workers, losing nuclear power is 
alarming.
    It is also about affordable electricity. Natural gas prices 
are low today. Less than 10 years ago, though, natural gas 
prices in the U.S. were at their highest ever. If we continue 
to replace closing nuclear plants with natural gas plants, it 
could lead to an increase in natural gas prices.
    In 2014, an IHS energy report found that the diversified 
electricity supply in the U.S. lowers the cost of generating 
electricity by more than $93 billion a year. This means having 
nuclear, coal, hydro, natural gas all available. That lowers 
the cost of electricity. Losing this diversity could be very 
costly.
    So if you are concerned about low-cost power, losing 
nuclear plants, which supplies 20 percent of our electricity, 
is alarming.
    So I think we need to do something about nuclear power.
    Over the last 5 years, six reactors have shut down 
prematurely. Analysts have warned dozens of additional reactors 
could shut down over the next 10 years, and in roughly two 
decades the U.S. could lose about half its reactors. That is 
because by 2038, 50 reactors will be at least 60 years old.
    We could replace that lost generation with natural gas, but 
that could lead to an increase in prices and increased carbon 
emissions. Or we could replace it with renewables, but that 
would lead to considerable loss in reliability and could lead 
to a large increase in electricity prices.
    It would take a wind farm the size of Indiana to build 
enough wind turbines capable of producing the same amount of 
electricity as our current nuclear fleet.
    The way I see it, we must replace the lost generation of 
nuclear reactors with new ones. If we continue to develop and 
be ready to efficiently license small modular reactors and 
advanced reactors, they could represent the future of nuclear 
power. They will be safer, produce less waste, and operate with 
higher efficiency.
    Our next generation of reactors will not likely be possible 
without government funding, research, and support at the 
outset, which means we must double funding for basic energy 
research, which is about $5 billion a year today. We could pay 
for it by reducing subsidies for mature technologies, both for 
renewables and for fossil fuels.
    I think the best way to lower the cost of energy, clean the 
air, improve health, increase family incomes, and produce jobs 
is double the funding for basic energy research. That means we 
must continue to support the good work of our national labs 
doing work on advanced reactors. I just mentioned the 
Appropriations Committee has recommended that to the Senate.
    Dr. Moe Khaleel is here today to talk about the great work 
they are doing at the Oak Ridge National Lab in Tennessee. Dr. 
Khaleel is Associate Lab Director for Energy and Environmental 
Sciences at Oak Ridge. In his role, he oversees the lab's 
activities that bring basic science to applied research and 
develop to support energy production, transmission, and 
conservation.
    I thank the Chair and the Ranking Member not only for 
inviting me to introduce Dr. Khaleel, but allowing me to say 
those few words about what we can do to advance the next 
generation of nuclear reactors. Thank you.
    [The prepared statement of Senator Alexander follows:]

       Prepared Statement of Hon. Lamar Alexander, U.S. Senator 
                      from the State of Tennessee

    Thank you Chairman Capito and Ranking Member Whitehouse for 
inviting me today and for holding this hearing. And, thank you 
to the witnesses for being here today. Today, our country has 
99 nuclear reactors. These 99 reactors are capable of producing 
100,000 megawatts of clean, reliable electricity--with zero 
carbon emissions. If we were to close those 99 nuclear 
reactors, which provide more than 60 percent of our carbon-free 
electricity, and replace them with natural gas plants-- which 
history has shown is what usually happens when nuclear power is 
replaced--the emissions produced by these new natural gas 
plants would be the equivalent of placing nearly 118 million 
new cars on our roads.
    That's more than all U.S. passenger cars on the road today. 
If you are concerned about climate change, that possibility is 
alarming. And while we normally think of clean nuclear power 
when we are talking about climate change, it's much more 
fundamental than that. First, it's about jobs. The nuclear 
industry employs 100,000 people throughout the country. These 
are high-quality, good-paying, career-long jobs. In South 
Carolina and Georgia, the four nuclear reactors currently under 
construction created about 10,000 jobs. If you're concerned 
about unemployment and the communities that support our 
existing nuclear reactor sites, the thought of losing these 
jobs is alarming.
    Second, it's about reliable electricity. Nuclear reactors 
operate over 90 percent of the time and provide reliable, 
baseload power. We all rely on electricity every day. We expect 
our lights to turn on in the morning and our air conditioners 
to work in the evenings. Our manufacturers, which consume more 
than 30 percent of the nation's energy, rely on electricity to 
produce goods 24 hours a day. Without reliable power, none of 
this would be possible. If you're concerned about domestic 
manufacturing and supporting the 12.3 million manufacturing 
workers in the United States, losing 100,000 megawatts of 
baseload power is alarming.
    Third, it's about affordable electricity. While natural gas 
prices are low today, less than 10 years ago, natural gas 
prices in the United States were at their highest ever. If we 
continue to replace closing nuclear plants with natural gas 
plants, it could lead to an increase in natural gas prices. In 
2014, an IHS Energy report found that the diversified 
electricity supply in the United States we have today lowers 
the cost of generating electricity by more than $93 billion per 
year. This means having nuclear, coal, hydropower, and natural 
gas all available lowers the cost of electricity. Losing this 
diversity could be very costly. So if you're concerned about 
providing low-cost power in the United States, losing nuclear 
power--which supplies 20 percent of our nation's electricity--
is alarming.
    I think it's clear that we must do something to support 
nuclear power. But, over the last 5 years, six nuclear reactors 
have shut down prematurely and analysists have warned dozens of 
additional nuclear reactors could potentially shut down over 
the next 10 years. And in roughly two decades, the United 
States could lose about half of its reactors. That's because, 
by 2038, 50 reactors will be at least 60 years old, which is 
when their licenses run out, representing nearly half of the 
nuclear generating capacity in the United States. We could 
replace that lost generation with natural gas. But that could 
lead to an increase in electricity prices and increased carbon 
emissions. Or we could replace that lost generation with 
renewables. But that would lead to a considerable loss in 
reliability and could lead to a large increase in electricity 
prices. And it would take a wind farm the size of Indiana to 
build enough wind turbines capable of producing the same amount 
of electricity as our current nuclear reactor fleet.
    The way I see it, we must replace that lost generation with 
new nuclear reactors. And to do that we must develop the next 
generation of nuclear reactors. We must continue to develop and 
be ready to efficiently license small modular reactors and 
advanced reactors. These new technologies could represent the 
future of nuclear power. These new reactors will be safer, 
produce less waste and operate with higher efficiencies and at 
a lower cost than the existing reactor fleet while still 
providing carbon-free electricity. But, our next generation of 
nuclear reactors will likely not be possible without government 
funded research and support. Which means we must double funding 
for basic energy research.
    I think the best way to lower the cost of energy, clean the 
air, improve health, increase family incomes, and produce good-
paying jobs is to double funding for basic energy research and 
drive American innovation. We must continue to support the good 
work our national laboratories are doing on advanced reactors. 
Dr. Moe Khaleel is here today to talk about the great work 
they're doing at the Oak Ridge National Laboratory in 
Tennessee. Dr. Khaleel is the Associate Lab Director for Energy 
and Environmental Sciences at Oak Ridge. In his role, Dr. 
Khaleel oversees the lab's activities that bring basic science 
to applied research and development to support energy 
production, transmission, and conservation. I thank the Chair 
and Ranking Member for inviting me to this hearing and look 
forward to the testimony from the witnesses and hearing about 
what we can do to advance the next generation of nuclear 
reactors.

    Senator Capito. Thank you, Senator Alexander.
    Now we will turn to Senator Barrasso, Chair of the full 
Committee.
    Welcome.
    Senator Barrasso. Thank you very much, Madam Chairman. I 
would like to take a moment to introduce Jason Begger, who has 
served as Executive Director of the Wyoming Infrastructure 
Authority since July 2015. His past experience includes 
positions in the private sector and time as a staffer for the 
U.S. House of Representatives, where he handled energy issues.
    In his current role, Jason oversees the development of the 
Wyoming Integrated Test Center. This center is now under 
construction on the site of a state-of-the-art coal-fired power 
plant outside of Gillette, Wyoming. When the Center comes 
online later this year, researchers will use the facility to 
test carbon capture, utilization, and sequestration 
technologies.
    Those researchers will include finalists of the Carbon 
XPRIZE competition. The XPRIZE competition attracted 47 teams 
from seven countries to compete for funding to research 
innovative ways to convert carbon captured from coal plants 
into marketable products.
    In my home State of Wyoming, we know coal provides 
affordable, reliable energy, and good jobs. Coal communities in 
the Powder River Basin and the Green River Basin, and all 
across Wyoming, have been smothered by Federal overreach and 
regulation.
    The State-led Wyoming initiative provides a path forward 
for coal, while spurring new technologies to transform carbon 
emissions into usable products.
    Mr. Begger, I want to thank you for coming to Washington 
today. We look forward to hearing your testimony about this 
successful venture in Wyoming.
    And I would also like to applaud the Chairman of this 
Subcommittee, Chairman Capito, and Ranking Member Whitehouse 
for holding this hearing so that the Subcommittee can explore 
policies that will help the Nation develop energy and make sure 
that it is as clean as we can as fast as we can.
    Thank you very much, Senator Capito.
    Senator Capito. Thank you. And I would like to welcome the 
witnesses.
    Senator Carper. Madam Chair, could I just make a unanimous 
consent request? I would ask that my statement be included in 
the record.
    And we have a special guest here from West Virginia, and I 
just want to say, as a native of West Virginia, we are happy 
that you are here. Give Gordon Gee my best. He has been 
President of West Virginia twice, Ohio State when I was an 
undergraduate, Vanderbilt, Colorado. He has had a lot of----
    Senator Whitehouse. Are you missing somebody?
    Senator Carper. Brown.
    Senator Whitehouse. Thank you.
    Senator Carper. He has had a lot of jobs, but he has always 
had a good one. Give him my best, please. Thank you.
    Senator Capito. Yes, without objection on your unanimous 
consent.
    [The referenced information follows:]
    
    
    
    
 
    
    Senator Capito. And we will have the witnesses take their 
place at the table.
    Senator Whitehouse. And, Madam Chair, while the witnesses 
are getting seated, I would like to ask unanimous consent that 
the op-ed piece that I referenced in my opening remarks that 
Senator Alexander and I wrote, as well as an op-ed piece that I 
wrote with Senator Inhofe, Senator Booker, and Senator Crapo be 
added to the record of this proceeding.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    Senator Capito. So now I will introduce or I will recognize 
the rest of our panel. And I think your written statements are 
in our materials, and you will be recognized for 5 minutes.
    Our next witness is Dr. Brian Anderson, who I referred to 
in my opening remarks, and I am very pleased that he is here 
representing the Energy Institute at West Virginia University.
    Welcome, Dr. Anderson.

 STATEMENT OF BRIAN ANDERSON, DIRECTOR, WVU ENERGY INSTITUTE, 
                    WEST VIRGINIA UNIVERSITY

    Mr. Anderson. So, first I would like to thank Senator 
Capito and Ranking Member Whitehouse, as well as Chairman 
Barrasso for having us here in this hearing.
    And, Senator Carper, I will pass on my regards to President 
Gee.
    What I would like to talk about today is a little of the 
research that we do at WVU and also some of the findings about 
the broader impacts of advanced fossil energy technologies on 
the potential for reducing climate-forcing gases into the 
atmosphere.
    So, at West Virginia University we have 167 faculty members 
who are affiliates of the University WVU Energy Institute, and 
this is across many different areas of research in the 
University, 14 different colleges, in fossil energy, renewable 
energy, policy and the environment. If you may recall, it was 
our environmental team, the Center for Alternative Fuels, 
Engines and Emissions, that found that Volkswagen was cheating 
on their emissions regulations for the NOx emissions. We also 
have the Water Research Institute that is leading in the 
development of technology from taking acid mine drainage in our 
waters and extracting rare earth elements that support many 
renewable energy technologies.
    In the renewable space, we are a leader in biomass, as well 
as geothermal, and in energy storage to enable renewable energy 
technologies into the grid.
    But the focus of my 5-minute testimony, the remaining three 
and a half minutes, is on fossil energy technologies, and 
really three major projects that we have going on at the 
University.
    The first is the U.S.-China Clean Energy Research Center 
Advanced Coal Technology Consortium, which is a result of the 
U.S.-China Protocol signed in 2009 to reduce carbon emissions 
from all aspects of energy technologies. We lead the Advanced 
Coal Technology Consortium, along with Livermore National Lab 
and another couple national labs and universities, in 
developing clean energy technologies hand-in-hand with 
counterparts in China, and to this project we really focus on 
two different areas: efficiency of the current fleet, as well 
as new technologies to reduce the carbon footprint of coal 
power generation.
    So increasing efficiency, there is one particular barrier I 
would like to draw attention to this Subcommittee and the 
Committee as a whole, is the New Source Review for coal burning 
power plants. With substantial improvements in efficiency, 
plants have to go through the New Source Review, and this is a 
significant barrier to the deployment of new, higher efficiency 
technologies in the coal fleet.
    In the areas of new technologies under the CERC program at 
WVU and across the world, our developments of technologies of 
chemical looping combustion, as well as oxy-pressure 
combustion, gasification, integrated gasification, combined 
cycle, carbon capture, and sequestration technologies, and we 
are able to witness the advances in these technologies that are 
occurring in China and, quite frankly, we are falling behind in 
the development of new materials for higher temperature power 
cycles that lead to higher efficiency coal burning generation. 
Any carbon CO<INF>2</INF> molecule that is not emitted through 
efficiency is one that is equivalent to one that is captured 
and sequestered.
    The second project I do want to draw attention to is called 
the Marcellus Shale Energy and Environment Laboratory. As we 
know, much of our power sector is shifting to natural gas, and 
there is a lot of natural gas and natural gas liquids being 
produced from the region in Appalachia. Our Marcellus Shale 
Energy and Environment Laboratory, called MSEEL, is the world's 
first transparent well in the sense that all the data collected 
in terms of its water footprint, its air footprint, noise, 
light, and the full cycle of the production of natural gas from 
this Marcellus Shale site in Morgantown is open to the public. 
This is one of the most instrumented wells in the world, and we 
have a full record of all of its emissions through the cycle, 
with a design on reducing emissions during production, as well 
as emissions during transportation and distribution of natural 
gas.
    And then the third project I do want to draw attention to 
is one called the Appalachian Natural Gas Liquid Storage and 
Training Hub that we have been working on for a couple of years 
now. This is trying to catalyze both the industry and lower 
carbon clean manufacturing, as well as the efficient use of our 
natural gas and natural gas liquids resources to reduce 
transportation costs, as well as the cost of the end 
manufactured product to consumers.
    This particular project is one that we envisioned to 
catalyze the industry and the petrochemical industry in the 
Appalachian Basin in West Virginia, Pennsylvania, Ohio, and 
Kentucky, but do it in a fashion where the next generation of 
the petrochemical industry can implement new technologies that 
we are working on both at the University and our national lab 
partners.
    So again I would like to thank you for inviting me here 
today, and I look forward to the questions the Committee would 
have. Thank you.
    [The prepared statement of Mr. Anderson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    
    Senator Capito. Thank you. Thank you, Dr. Anderson.
    Our next witness is Mr. Jason Begger, introduced by his 
Senator from Wyoming. He is at the Wyoming Integrated Test 
Center. He is also Executive Director of the Wyoming 
Infrastructure Authority.
    Welcome.

    STATEMENT OF JASON BEGGER, EXECUTIVE DIRECTOR, WYOMING 
                    INFRASTRUCTURE AUTHORITY

    Mr. Begger. Thank you. Madam Chairman, Ranking Member 
Whitehouse, Chairman Barrasso, members of the Subcommittee, I 
appreciate the opportunity to speak to you today about our 
carbon technology efforts in Wyoming.
    Senator Barrasso gave a little bit of my background, but 
the Infrastructure Authority is a State instrumentality tasked 
with promoting and assisting in the development of energy 
infrastructure. Currently, our largest project is the Wyoming 
Integrated Test Center, which is a private-public partnership 
between the State of Wyoming, Basin Electric Power Cooperative, 
Tri-State Generation and Transmission Association, the National 
Rural Electric Cooperatives Association, and we have also 
received various sorts of in-kind contributions from Black 
Hills Energy and Rocky Mountain Power.
    While we believe there is an important role for Federal 
Government to play in advancing technology, and we would 
welcome a partnership, not one cent of Federal funding has been 
utilized at the ITC.
    The ITC is a post-combustion, flue gas research facility 
located at Basin Electric's Dry Fork Power Station near 
Gillette, Wyoming. It will be the largest facility of its kind 
in the United States, delivering up to 18 megawatts worth of 
scrubbed flue gas to researches testing CCUS technologies. The 
power plant will provide flue gas to five small research bays 
each capable of hosting tests up to 0.4 megawatts, and a large 
test bay that can host two demonstration projects with a 
cumulative total of 18 megawatts.
    The distinction from the National Carbon Capture Center in 
Alabama is that their largest testing capabilities is only 1.5 
megawatts.
    Today, most post-combustion CO<INF>2</INF> capture plants 
employ amine solutions. Boundary Dam and Petra Nova utilize 
amines; Technology Centre Mongstad in Norway, and the National 
Carbon Capture Center are leading research on solution-based 
CO<INF>2</INF> capture. In Wyoming, we didn't want to duplicate 
work that was already being done; we wanted to compliment the 
other test centers by providing a place to scale up current 
research or look at other novel technologies.
    One such technology that has received support from Wyoming 
is cryogenic carbon capture. The various components of flue gas 
freeze and vaporize at different temperatures. This technology 
involves freezing the flue gas and capturing CO<INF>2</INF> as 
a frozen solid. Early tests have shown a 99 percent 
CO<INF>2</INF> capture rate, costing less than $30 per ton, 
with a 15 percent parasitic load. The method has also proven to 
be very successful in removing sulfur dioxide, nitrous oxide, 
and mercury.
    While we have seen promising results at small scale, 
further funding and testing is necessary to see this as a 
larger pilot project.
    One of the most exciting partnerships that we have 
developed is with the XPRIZE Foundation. One of the best known 
XPRIZE competitions is the Ansari XPRIZE, which awarded the 
first team to fly three people to space and back twice within 
14 days. One $10 million prize spurred 27 teams to invest over 
$100 million in technology development.
    Eventually, Richard Branson licensed this technology to 
create Virgin Galactic, and today the private space travel 
industry is worth $2 billion, only 22 years after the idea for 
the competition was created.
    The NRG COSIA Carbon XPRIZE will award $20 million in teams 
that are best able to convert CO<INF>2</INF> into other 
valuable products. Currently, we have 23 teams from six 
countries that are in the second semifinal round, and they are 
working on ways to convert CO<INF>2</INF> into things like 
carbon nanotubes, methanol, building materials, fish food, and 
plastics. The five finalists will test at the ITC with the goal 
of turning CO<INF>2</INF> into an asset.
    Technology should be apolitical, and the U.S. can make its 
greatest impact by investing in technology development that can 
be utilized around the world. There is considerable debate over 
the future of coal in the United States. However, every 
credible energy analysis from the U.N. Intergovernmental Panel 
on Climate Change to the Department of Energy acknowledges that 
large amounts of coal will continued to be used globally for 
the foreseeable future. Technology is the best way to ensure 
these countries have access to power but, yet, can meet 
environmental goals.
    I appreciate the opportunity to speak with you today and 
will gladly answer any questions. Thank you.
    [The prepared statement of Mr. Begger follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
           Responses of Jason Begger to Additional Questions 
                         from Senator Barrasso

    Question 1. The Wyoming Integrated Test Center (ITC) is a 
great example of what can be achieved when government, 
researchers, and industry work together to innovate. Can you 
discuss other initiatives related to Carbon Capture, 
Utilization, and Storage (CCUS) that the State of Wyoming is 
pursuing to support the transformation of carbon into a 
commercial asset?
    Response. The State of Wyoming has been very proactive in 
developing all of the pieces necessary to commercialize carbon 
management technology by creating a number of entities focused 
on particular portions of the development chain. The University 
of Wyoming School of Energy Resources (SER) was created to host 
and develop the academic and bench-scale processes, with a goal 
of identifying which technology concepts are worthy of scale-
up. The SER has state-of-the-art laboratory facilities, which 
includes a 3-D visualization center where researchers can 
literally walk into 3-D models of geologic reservoirs to study 
suitability for things such as enhanced oil recovery (EOR) and 
permanent geologic sequestration. The University has also 
created many Centers of Excellence, such as the Enhanced Oil 
Recovery Institute, which characterizes and identifies areas 
well-suited for CO2 EOR; and the Carbon Management Institute, 
which is currently characterizing two geologic formations for 
potential permanent CO2 storage.
    The State has also created several independent entities to 
push carbon management. The Wyoming Business Council assists 
entrepreneurs looking to commercialize and establish a 
business, or businesses that are looking to relocate to 
Wyoming. The Wyoming Pipeline Authority works to develop 
pipeline infrastructure within the state, including CO2 
pipelines that would be necessary. Last, the Wyoming 
Infrastructure Authority is tasked with developing large-scale, 
new generation technology projects. The Wyoming ITC is one such 
project.
    The State of Wyoming's efforts have led to an entire 
network of entities from the SER looking at the basic research; 
to the ITC, where projects can scale-up; to the end users of 
CO<INF>2</INF> .

    Question 2. What are the most important actions that the 
Federal Government should take to facilitate the development 
and scaling up of CCUS technologies for power plants across the 
nation?
    Response. From a purely R&D perspective, you cannot force 
innovation through regulation or a politically mandated 
deadline. Innovation comes from incentives, adequate resources 
and reasonable timeframes. Many of the timelines with the Clean 
Power Plan were simply unworkable since even if the technology 
was commercial, it did not consider the time necessary to 
manufacture and install. A consistent R&D funding stream would 
provide the reliability necessary for researchers to undertake 
multiyear projects. One such avenue would be to divert the 
Federal Government's share of the Federal coal mineral royalty 
to technology development for a period of 10 years.
    Utilities also need regulatory certainty. Certainly, 
economic forces such as low natural gas prices have hindered 
coal usage, however, natural gas prices have a relatively short 
commodity cycle of a few years, whereas a coal plant has a 50-
60-year operating life. With such a long lifespan, utilities 
are hesitant to make multibillion-dollar investments without 
knowing the rules beyond the current Presidential 
administration. Through regulation, legislation, technology or 
a combination, utilities must have long-term certainty about 
how carbon will be managed.
    It would also be helpful to recognize and incentive 
companies that are willing to host research projects or take 
undertake major pilot demonstration projects. While some may 
view the Kemper Project as a failure, Southern Company should 
be commended for attempting to push a major technological leap. 
R&D is risky and we need more utilities who are willing to 
scale-up technologies.

           Responses of Jason Begger to Additional Questions 
                        from Senator Whitehouse

    CCUS Technologies General
    Question 1. During the hearing, I mentioned several CCUS 
projects that have come online in recent years. This includes, 
the Iceland Carbfix Program, the Climeworks Direct Air Capture 
facility in Switzerland, the BioProcess H2O ethanol facility, 
and the Boundary Dam III carbon capture facility in the 
Canadian Province of Saskatchewan. These facilities cover a 
broad variety of CCUS technologies that includes coal, ethanol, 
permanent sequestration, and direct air capture.
    a. Can you discuss the other promising CCUS technologies 
that have come online in recent years either at the pilot scale 
or larger? What are the economics of these projects that allow 
them to operate?
    Response. A very important consideration of the economics 
of any project are the particulars of the country in which a 
project is commissioned. According to the Energy Information 
Administration, the average cost of electricity in the United 
States was 10.5 cents/kWh in 2016 (U.S. Energy Information 
Administration, 2017). That compares to 12 cents/kWh in 
Saskatchewan (city of Saskatoon, 2017), Switzerland is 20.6 
cents/kWh (ALPIQ Group, 2017) and 16 cents/kWh in Iceland 
(Statista, 2017). All prices converted to US dollars. Another 
consideration is how or if electricity is subsidized. For 
example, electricity used for home heating in Iceland is 
subsidized by the government (Bar tir, 2004). A carbon price 
would also impact the economics. It is difficult to conduct a 
true ``apples to apples'' comparison across international 
boundaries without a full accounting of the various factors 
impacting what the end-users actually pay. Understanding these 
differences in prices helps understand something that may be 
economical in one country, may not be in another.
    Two major projects in the United States are the Petra Nova 
and NET Power projects located in Texas. The Petra Nova is a 
commercial-scale, post combustion CCUS facility that utilizes 
solvent capture process to capture CO2 for use in enhanced oil 
recovery (EOR). The project is unique in many ways that assist 
with its economics. First, it received $190 million from the 
Dept. of Energy, a $250 million loan from the Japanese 
government and the owners, NRG and JX Nippon contributed $300 
million. NRG is an independent power producer, meaning they 
simply sell power onto the open market, they do not serve 
specific customers. JX Nippon is a Japanese oil and gas 
company. Adding the uniquness is that Texas is an unregulated 
utility market, so NRG did not need to obtain permission from a 
Public Service Commission or other rate making body to 
undertake the project.
    The NET Power project employs the Allam Cycle, which is a 
completely new process for utilizing fossil fuels to produce 
electricity while eliminating all air emissions, including 
carbon dioxide. A 50 MW pilot plant is scheduled to commence 
operations in November 2017 at a site in LaPorte, Texas.
    Other researchers such as SES in Utah are working on 
cyrogenic carbon capture; TerraCOH from Canada, which is 
working on using pressured CO<INF>2</INF> stored geologically 
as a battery; and membrane separation technologies from MTR in 
California.
    It is important to remember that first of a kind 
technologies are oftentimes not profitable without some sort of 
grant or financial assistance. Only after perfecting the 
technolgies in subsequent plants will the cost of 
manufacturing, construction and operations decrease to the 
point where it is truly economic. The key is to understand the 
price curve and path to commercialization with confidence at 
plant number x, it will become fully economicaly viable.

    b. Can you also discuss what CCUS technologies you believe 
could be coming online over the next several years as it 
relates to both CCUS and direct air capture?
    Response. The Allam Cycle is a very exciting new technology 
and could very well be the next generation power plant. 
However, as Wyoming has invested heavily in post-combustion 
research, we are very closely following those types of 
technologies, especially cyrogenic and mebrane separation.
    Currently, we do not see a near-term promise for direct air 
capture. According to Massachusetts Institute of Technology 
researchers, the capture costs for the Climeworks project in 
Switzerland are nearly $1000/ton (Marshall, 2017). Other 
capture technolgies cost nearly 10 times less (Service, 2016). 
Simply put, we can capture ten times the CO2 for the same cost 
by using other methods.

    c. What types of CCUS technologies hold the most promise as 
it relates to reducing our emissions to address climate change?
    Response. In Wyoming, we are most interested in large-
scale, commercial technologies that would produce large 
quantities of CO<INF>2</INF> that could be used for EOR or 
conversion technologies. We believe industrial settings, at or 
near large, stationary sources, provide the best economics.
    While there are many oportunities to refine and improve 
amines, largely, CO<INF>2</INF> capture via amines is 
considered close to commercial today since it is being utilzied 
at full-scale at sites such as Petra Nova and Boundary Dam. For 
post-combustion retrofits, membranes that would filter away the 
CO<INF>2</INF> hold great promise.
    With regards to new combustion technologies, oxy-fired and 
the Allam cycle are technologies that would utilize fuel in an 
entirely different way,

    Carbon Utilization
    Question 2. To address climate change we must reduce our 
emissions from multiple sectors including the power, industrial 
sector, and transportation sector. As discussed during the 
hearing, BioProcess H2O is a unique as it reduces emissions 
from an ethanol plant.
    a. What are the different forms of carbon utilization that 
have proven to work at the pilot scale? In your opinion what 
are the promising carbon utilization technologies that have not 
yet been tested at the commercial scale?
    Response. CO<INF>2</INF> is a chemical compound and if it 
is simply considered a feedstock consisting of carbon and 
oxygen, the wide array of products that can be produced is 
limitless. However, the CO<INF>2</INF> has very strong, double 
covalent bonds. This renders CO<INF>2</INF> an incredibly 
molecule necessitating large amounts of energy to break the 
carbon and oxygen apart. Plant photosynthesis is a natural 
molecule splitting process, which is why many CO<INF>2</INF> 
management projects utilize some sort of plant production 
component. Companies such as LanzaTech are using CO<INF>2</INF> 
to feed microorganisms which will be converted into biofuels.
    Other projects seek to use the CO<INF>2</INF> as a 
feedstock in their process. A British company, Carbon 8, is 
using CO<INF>2</INF> as a catalyst to create artificial 
limestone, which is turned to aggregate and cinder blocks for 
construction. Covestro is a company producing plastics and 
materials from CO<INF>2</INF> .
    Wyoming's largest relationship in carbon utilization is 
with the NRG COSIA Carbon XPRIZE, which will conduct the final 
round of their competition at the Wyoming ITC. Currently, 23 
teams from six countries are working on processes to capture 
CO<INF>2</INF> from an operating coal-fueled powerplant and 
convert them into some marketable product. These teams are 
currently focused on products such as fish food, fertilizer, 
carbon nanotubes and building materials. Full team profiles and 
summaries of their technologies can be accessed at: https://
carbon.xprize.org/teams.

    b. What does carbon utilization mean for the overall 
economics of making CCUS projects more cost competitive?
    Without government assistance, carbon utilization is 
necessary to improve the economics until the capital and 
operating costs are hopefully reduced in subsequent plants. The 
first of a kind plants are the most expensive and the lessons 
learned building and operating them lead to future cost 
decreases. NRG acknowledges that they could build a second 
Petra Nova unit at a cost 15 percent less than the original.
    Also, the utilization of the CO<INF>2</INF> provides an 
additional revenue stream. EOR is the simplest and most widely 
utilized use of CO<INF>2</INF> today. Selling theCO<INF>2</INF> 
to an EOR operator could provide $25-30/ton to help offset the 
cost of the capture. Converting the CO<INF>2</INF> into an even 
higher value product, such as carbon fiber, could lead to 
revenues that exceed the cost of capture and make CCUS 
economically profitable.
    In Wyoming, we believe market based solutions toward CCUS 
will ultimately be more successful than government mandates. If 
CCUS is a revenue generator rather than an expense through 
regulation, technology will develop even faster. A win-win is 
removing CO<INF>2</INF> and creating a new industry.

    c. Can carbon utilization play a major role in reducing the 
cost of capture for CCUS projects?
    Absolutely. If the products or end use of the 
CO<INF>2</INF> sells for more than the cost of the capture, the 
business opportunity will push technology. Free markets drive 
innovation and cost declines much more quickly than government 
mandates.


                      emissions free grid by 2050


    Question 3. Each witness from the hearing discussed 
different clean air technologies that if developed and 
commercialized can reduce our emissions footprint. There is 
international agreement that CCUS and other renewable 
technologies can play a role in helping us cut emissions 
consistent with meeting our 2C targets, in a way that is 
sustainable and economically sound.
    a. Why are your labs prioritizing research in clean energy 
technologies like this?
    Response. The State of Wyoming currently receives 
approximately 70 percent of it's entire tax revenues from 
mineral extraction. Acknowledging societal concerns regarding 
carbon emissions, the State recognized nearly 15 years ago that 
advances in technology was a proven way to mitigate 
environmental concerns. Since the early 2000's, Wyoming has 
invested millions in funding new research and facilities with 
the goal of sustaining its tax base, while advancing clean 
energy tech.
    b. What role will advanced nuclear and carbon capture and 
utilization play in helping us meet our climate targets and 
having an emissions free grid by 2050?
    Technology is apolitical and the U.S. can make its greatest 
impact by investing in technology development that can be 
utilized around the world. There is considerable debate over 
the future of coal within the United States. However, wind 
farms and renewable alternatives still face long permitting 
timelines and intermittency challenges. For example, the Sierra 
Madre/Chokecherry Wind Farm and the associated TransWest 
Express transmission line planned for Wyoming would be the 
largest on-shore wind farm in the United States, delivering 
3000 MW of electricity to the Southwest U.S. This project filed 
its first permits in 2007 to the Bureau of Land Management, 
U.S. Fish Wildlife Service and associated Federal agencies 
during the last year of the Bush administration. They did not 
receive their final permits until 2017 under the Trump 
Administration. The permitting timeline was 10 years and cost 
over $125 million. The lengthy, expensive and complicated 
permitting requirements for new wind farms an incredible 
barrier to entry for large amounts of renewables in the Western 
U.S. to be added to the grid.
    Every credible energy analysis from the U.N. 
Intergovernmental Panel on Climate Change to DOE acknowledges 
large amounts of coal will be used globally for the foreseeable 
future. The world will not see an emissions free grid without 
CCUS.

    Senator Capito. Thank you very much.
    I now recognize Dr. Steve Bohlen, who is the Global 
Security E-Program Manager at the Lawrence Livermore National 
Laboratory of California.
    Welcome, Mr. Bohlen.

 STATEMENT OF STEVE BOHLEN, GLOBAL SECURITY E-PROGRAM MANAGER, 
             LAWRENCE LIVERMORE NATIONAL LABORATORY

    Mr. Bohlen. Thank you, Senator.
    Senator Capito. Dr. Bohlen. Sorry. It took you a lot of 
years to get to that.
    Mr. Bohlen. Thank you. Thank you for giving me this 
opportunity to share our insights into the current status and 
future of carbon capture, utilization, and storage. My name is 
Steve Bohlen, and I lead the advanced energy technologies and 
energy security portfolios at the Lawrence Livermore National 
Laboratory.
    Management of carbon dioxide emissions is not just viable; 
the technology exists today, is deployed and operating, and 
functions as designed. In addition, and perhaps most important, 
technologies for converting CO<INF>2</INF> into useful 
materials and chemical feedstocks is developing rapidly. These 
provide new possibilities for a commercial enterprise in the 
United States, not to mention technical leadership.
    Carbon capture, utilization, and storage is a growing, but 
underutilized element in the clean energy industry. CCUS, as it 
is known, includes carbon capture and storage, CO<INF>2</INF> 
for enhanced oil recovery, CO<INF>2</INF> for conversion and 
use as various products, and even carbon removal technologies 
which pull CO<INF>2</INF> from the air and oceans. These 
different pathways provide many commercial and environmental 
opportunities for companies, communities, and governments.
    Technical progress in CCUS is significant with unrealized 
potential to manage carbon emissions. Today, 16 commercial 
plants operate worldwide, and 6 more will be operating in 2020. 
A third of these are in North America. Costs have come down, 
performance has improved, high-capacity sequestration has been 
demonstrated and proven to be safe, and new technologies have 
been borne.
    Independent analysis shows that CCUS can be cost-
competitive in certain markets with clean energy technologies. 
Together, these projects will inject 40 million tons of 
CO<INF>2</INF> underground, equivalent to pulling 8 million 
vehicles off the road. I describe a number of these projects in 
some detail in my written testimony.
    For nearly two decades, Lawrence Livermore National Lab has 
been funded to work on CCUS and has been a partner in most of 
the carbon capture sequestration projects nationally and 
globally. In addition, the lab has developed early stage 
technologies for CO<INF>2</INF> conversion to useful products 
such as methane, methanol, and ethylene.
    Livermore and other laboratories provide technical 
expertise, modeling and simulation, and actionable solutions 
for the challenges of enhanced oil recovery and carbon capture, 
utilization, and storage. For example, today Livermore provides 
advanced 3-D fracture mechanics modeling for industrial 
partners for managing the risk of induced seismicity, for 
enhanced oil recovery, and underground carbon sequestration 
projects, as well as hydraulic fracturing, with the added 
benefit of using the same advanced tools for the monitoring of 
nuclear testing programs by our adversaries.
    Lawrence Livermore National Lab scientists have provided 
technical and modeling expertise for large-scale geologic 
carbon sequestration projects globally, and the safe, long-term 
storage of several tens of millions of tons of CO<INF>2</INF> 
underground.
    In looking to the future, Livermore is engaged in the 
development of revolutionary new technologies with industrial 
partners to manage CO<INF>2</INF> emissions by turning 
CO<INF>2</INF> into valuable feedstocks for fuels and 
chemicals. In fact, we see a society that is poised at the edge 
of a new carbon economy, one in which CO<INF>2</INF> is the 
driving force for new products and new enterprises in which 
innovation and entrepreneurships creates new companies and 
wealth by capturing and converting CO<INF>2</INF> into value-
added products.
    Employing out-of-the-box thinking, the Lab is embarking on 
a bold new approach to manage CO<INF>2</INF> at large scale, 
and simultaneously providing carbonate sands for cement 
manufacture and beach replenishment and elevation gain by 
extracting CO<INF>2</INF> from seawater.
    CCUS has many applications, including power, heavy 
industry, and as a pathway for achieving negative emissions. 
Though commonly considered a coal power sector technology, for 
which the technology would be most valuable in reducing 
emissions, the same or similar technology can be applied to 
biomass, natural gas, biogas, and even fuel cell power systems.
    Many heavy industries, representing 20 percent of global 
emissions, lack other options to decarbonize. For cement, 
steel, petrochemical refining, and glass making, most of these 
emissions are a direct consequence of fabrication chemistry. To 
manage these emissions, carbon capture is currently the only 
viable option.
    This concludes my testimony, and I look forward to your 
questions.
    [The prepared statement of Mr. Bohlen follows:]
    
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 Responses of Jason Begger to Additional Questions 
                        from Senator Whitehouse


                     1. ccus technologies general:


    During the hearing, I mentioned several CCUS projects that 
have come online in recent years. This includes, the Iceland 
Carbfix Program, the Climeworks Direct Air Capture facility in 
Switzerland, the BioProcess H2O ethanol facility, and the 
Boundary Dam III carbon capture facility in the Canadian 
Province of Saskatchewan. These facilities cover a broad 
variety of CCUS technologies that includes coal, ethanol, 
permanent sequestration, and direct air capture.
    Question 1. Can you discuss the other promising CCUS 
technologies that have come online in recent years either at 
the pilot scale or larger? What are the economics of these 
projects that allow them to operate?
    Response. There are many projects and approaches that 
highlight the state-of-the-art today and what is possible soon. 
Direct air capture projects (e.g., the Climeworks project in 
Zurich) are discussed in section 3 below.

     PetraNova, Texas: Using Japanese technology (Mitsubishi 
Heavy Industries), NRG retrofit a Houston supercritical coal 
unit for 90 percent CO<INF>2</INF> capture. Roughly 1.4 million 
tons CO<INF>2</INF>/y are used for enhanced oil recovery. Unit 
costs are roughly $100/ton CO<INF>2</INF> , which is comparable 
to reduction costs achieved by many other clean power 
technologies, with substantial room to reduce costs in the 2nd-
4th plants. Economics are possible due to revenues from 
enhanced oil recovery sales, a novel business structure where 
NRG owns part of the oil field receiving CO<INF>2</INF>, and a 
$227 million grant from the US Dept. of Energy.
     Al Reyadah, Abu Dhabi: This project takes 800,000 tons/y 
of by-product CO<INF>2</INF> from a steel mill and uses it for 
enhanced oil recovery. Conventional pre-combusion separation 
technology (Selexol) separates CO<INF>2</INF> from syngas. Unit 
costs are estimated to be between $15-25/ton CO<INF>2</INF> . 
The economics are possible due to revenues from enhanced oil 
recovery sales, low power costs for compression, and the low 
cost of compressing and transporting pre-concentrated by-
product CO<INF>2</INF> from the steel plant.
     NetPower, Houston: This new, advanced power cycle uses 
supercritical CO<INF>2</INF> as working fluid in the turbine, 
and combusts natural gas or coal syngas in an oxygen and 
CO<INF>2</INF> rich synthetic air. The pilot plant is fully 
constructed and is under testing now (more details in section 
1.b on economics and opportunities for deployment). Economics 
are possible based on lack for CO<INF>2</INF> storage 
integration and private investment of private capital from 
industrial partners.
     Archer Daniels Midland (ADM), Illinois: High-
concentration, by-product CO<INF>2</INF> from an ethanol 
fermenter in Decatur is compressed and injected into a deep 
saline formation. Economics are made possible by a $180M grant 
from the US Dept. of Energy, which covers capital and operating 
costs, as well as low-cost power for compression.

    NOTE: This project would be commercial today if ethanol 
from this plant sold into California under the Low-Carbon Fuel 
Standard ($80-120/ton CO<INF>2</INF> ). It is anticipated that 
ADM will take advantage of this revenue source once the State 
of California completes its accounting standard for CCS, 
scheduled for 2 years from now. Many ethanol producers are 
looking forward to this CCS economic boost, which we estimate 
will provide about $0.20/gallon in additional profit for 
ethanol with CCS (including the cost of the CCS system).
    The Department of Energy estimated in the recent Billion 
Ton Report that the U.S. could reliably produce 1.5 billion 
tons of biomass for biofuel production. Typically half of the 
carbon in biomass is emitted as CO<INF>2</INF> during 
processing. If all of this biomass were treated in facilities 
with CCS like ADM, as much as 750 million tons of 
CO<INF>2</INF> could be sequestered. This CO<INF>2</INF> has 
been captured from the atmosphere by the agricultural plant 
growth, and the sequestered amount would be `negative' 
emissions. The capture technology is well-demonstrated to 
achieve this goal, but storage options need to be developed.
    Most of these projects are in the US with American 
companies. The economics of every project required some 
additional revenues, grants, or funds to close a financial gap 
for these first of a kind sequestration operations.
    Question 2. Can you also discuss what CCUS technologies you 
believe could be coming online over the next several years as 
it relates to both CCUS and direct air capture?
    Response. Yes.
     NetPower: NetPower is using the Allam cycle--a new, high-
pressure/high-temperature gas oxycombustion approach that 
remains above the supercritical point for CO<INF>2</INF> 
through the whole cycle. If it works as predicted, it will 
combine high efficiency of gas turbines with 100 percent 
CO<INF>2</INF> capture at near-zero additional costs. The unit 
is being tested at the Houston pilot plant now. NetPower would 
be the first in line to provide a zero-Carbon natural gas 
project in the U.S. (and in the world).
    This technology could be a game-changer in the U.S. with 
our large natural gas reserves and geologic storage capacity. 
It requires all new-plant construction (cannot be retrofit to 
existing plants) but offers an intriguing option for renewable 
integration; for the last 3 years new power plant construction 
in the U.S. has been a mix of gas, wind, and solar, roughly 1/3 
each. Constructing new gas plants that meet the NetPower 
expectations would make that mix a zero-carbon solution.
     Reykjavik Energy, CarbFix, and Climeworks: Today, 
Climeworks captures CO<INF>2</INF> from the air and sells it to 
a greenhouse. They are working with an Icelandic geothermal 
power company, Reykjavik Energy, to create the world's first 
negative emissions power plant. The preferred site is at the 
CarbFix project, which reinjects CO<INF>2</INF> into the basalt 
formations of geothermal production zones, where it mineralizes 
as new carbonate minerals. They plan to integrate the 
Climeworks technology at the CarbFix site, and hope to sell the 
service of negative emissions to potential buyers.
     Carbon Recycling International in CA: A number of 
technologies and companies convert CO<INF>2</INF> into 
chemicals and products, including methanol (which can be used 
as a transportation fuel, cooking fuel, or feedstock chemical). 
Carbon Recycling International is an Icelandic company that 
combines renewable hydrogen with CO<INF>2</INF> and heat to 
make methanol, which they sell to the European market. They 
have a subsidiary office in Los Angeles, which is exploring the 
possibility of integrating direct-air capture technology with 
CO<INF>2</INF> -to-methanol conversion in California. These 
fuels would benefit from the low-carbon fuel standards and air-
quality control regulations in CA, and may be commercial there.
     Biomass Conversion with CCS: Converting the wood and 
fiber left over from agriculture and forestry is being pursued 
by a number of small ventures including a partnership of Easy 
Energy and Iowa State University who are working with LLNL and 
the State of California to demonstrate conversion of forest 
waste into bio-oil by pyrolysis, a fast heating process. About 
20 percent of the waste is turned to charcoal, or biochar, that 
can be used to improve farm soils while permanently storing 
carbon, making this a negative emissions process. The pyrolysis 
approach only requires small equipment that can be moved near 
the biomass source, rather than facing the transportation 
problems of large biomass energy plants.
     Other Industrial CCUS--Like the ethanol and fertilizer 
plants of the US breadbasket, many industrial belts in the US 
have large-volumes of near-pure CO<INF>2</INF> that could be 
stored, used for EOR, or serve as feedstocks for CO<INF>2</INF> 
conversion. One important example is along the Gulf Coast, 
including Mississippi, Louisiana, and Texas. In particular, 
CO<INF>2</INF> from these sources could be applied in offshore 
carbon storage and EOR sites. These would take advantage of 
existing infrastructure, namely near-shore platforms that are 
close to decommissioning. Storing CO<INF>2</INF> would help 
delay decommissioning costs, saving money and creating more 
resource.
    Question 3. What types of CCUS technologies hold the most 
promise as it relates to reducing our emissions to address 
climate change?
    Response. The efficient conversion of biomass to products 
like fuels is the low-hanging fruit of CCUS today. Ethanol 
plants emit pure CO<INF>2</INF> for storage or reuse, thermal 
processes make biochar for soil improvement, and good crop 
management improves soil carbon. The products benefit from 
Federal RINS and State LCFS economics. These efforts need to 
demonstrate that they are effective, and quantify their final 
carbon footprint. `Air capture' through biomass is already a 
pillar of the U.S. economy in our agricultural and forestry 
management systems. All of the direct air capture systems have 
these economic benefits and demonstration challenges--it is 
convenient to consider them in the same light.
    Liquid fuel production, and CCS associated with it, address 
the largest source of U.S. CO<INF>2</INF> emissions: 
transportation. Great progress has been made in electric power 
generation, but transportation gains have been limited to 
efficiency. Biofuels are an important part of this, as is 
creation of hydrogen from natural gas with CCS. This is a low-
cost option today, and hydrogen can be used as a fuel itself, 
or to upgrade other fuels, even to make fuels directly from 
CO<INF>2</INF> . Hydrogen is an important industrial product, 
and three projects (including the Shell Quest project in 
Alberta and the Air Products project in Texas) demonstrate that 
zero-carbon hydrogen production from natural gas plus CCS is a 
commercially viable approach that is technically mature.
    We have been very focused on CCS in coal fired power, and 
those technologies are maturing. Options like NetPower (see 
above, sections 1.2 and 1.1) could completely reshape our 
carbon emissions. With the impressive gains in renewables, a 
carbon-free U.S. grid is in sight. Electrification and 
reduction of the carbon footprint of liquid fuels can make 
major progress in transportation. But key industrial emissions 
like steel, concrete, glass, and chemical production need new 
options.
    A thorny problem is that captured CO<INF>2</INF> needs to 
be transported to its storage or use point. Creation of 
pipeline systems to provide this service would greatly reduce 
the cost. Some future options for utilization of CO<INF>2</INF> 
, such as creating ethylene from CO<INF>2</INF> via 
electrocatalysis, could facilitate local usage of 
CO<INF>2</INF> at the source. Inexpensive hydrogen from natural 
gas with CCS would enable the decarbonization of many 
industrial processes including steel production.
    Norway has just undertaken an effort to completely 
decarbonize its industrial sector via CCS. The industrial 
sources include cement, fertilizer, and waste-to-energy (trash 
burning).They will use ship transport of CO<INF>2</INF> to a 
single storage site in the North Sea. The industries are 
responsible for capture at their site, but the government is 
taking responsibility for the transport and storage, including 
liability issues. The ship transport demonstration is unique in 
the world, and could be applicable in the U.S. Gulf Coast where 
most emitters are along shipping lines, and there is huge 
capacity offshore.
    Finally, there are many other promising CCUS technologies 
nearing technical readiness. Chemical looping is one example--
it draws the energy from fuels very efficiently without burning 
them through direct chemical reactions. New solid sorbents 
present potential breakthroughs in both capital and operating 
costs, and may prove sufficiently robust for direct air 
capture. Advances in advanced manufacturing, like the microbead 
capture technology developed at LLNL, hold promise for dramatic 
cost reduction and the ability to deploy CCS at distributed 
sources. Many of these technologies require more time and 
funding before they could enter the market competitively.


                         2. carbon utilization:


    To address climate change we must reduce our emissions from 
multiple sectors including the power, industrial sector, and 
transportation sector. As discussed during the hearing, 
BioProcess H2O is a unique technology as it reduces emissions 
from an ethanol plant.
    Question 4. What are the different forms of carbon 
utilization that have proven to work at the pilot scale? In 
your opinion what are the promising carbon utilization 
technologies that have not yet been tested at the commercial 
scale?
    Response.
     Enhanced oil recovery is the major success in carbon 
utilization. Programs that incentivize storage could increase 
use of CO<INF>2</INF> in EOR to the point that the oil produced 
is carbon negative (more CO<INF>2</INF> stored than emitted in 
burning the fuel). This may prove particularly important in 
developing CO<INF>2</INF> -based EOR in residual oil zones 
(ROZ), which account for over 200 billion barrels of estimated 
resource in Texas alone.
     Feeding CO<INF>2</INF> to algae is a surprising success. 
Algae uses CO<INF>2</INF> to make biomass and are limited in 
their growth if they only get it from the air. Programs to add 
CO<INF>2</INF> to the ponds show significant increases in 
productivity, while also demonstrating reduction in the cost to 
capture the CO<INF>2</INF> because there is a much simpler 
separation system (for instance, high compression is not 
needed). Algae is converted into valuable chemicals, animal 
feed, and in the future, fuels.
     An early target of CO<INF>2</INF> utilization efforts was 
in cement and concrete production. Those efforts have created 
businesses like CarbonCure, who add CO<INF>2</INF> to concrete, 
resulting in a new reduction in the carbon footprint because 
the concrete is stronger, and less is needed, in addition to 
the CO<INF>2</INF> incorporated. A number of companies are 
pursuing similar goals. Transportation of the CO<INF>2</INF> to 
the concrete plants is a barrier, as is the technical 
understanding of all the mechanisms which incorporate 
CO<INF>2</INF> into cement.
     LLNL is working with Stanford University to produce 
methane from CO<INF>2</INF> with renewable energy. Both 
physical catalysts and biologic pathways are being evaluated. 
The low cost of renewable energy makes this potentially viable 
even in the U.S. if there are carbon emissions goals, such as 
those in California. Both major gas utilities in California are 
interested in this as a way to utilize their existing natural 
gas infrastructure in a zero-carbon economy.
     Laboratory studies have shown that CO<INF>2</INF> can be 
converted in to chemicals and fuels. The ARPA-E supported 
process from Oxide Materials and 3M produces gasoline from 
CO<INF>2</INF> and water using renewable electricity. A number 
of studies, notably those of Jarmillo at Stanford University, 
show that many if not all industrial chemicals can be made in 
this way. Ethylene, with 200 million tons of annual worldwide 
production resulting in 300 million tons of CO<INF>2</INF> 
emissions is a target for electrocatalytic production. Total, 
the French oil company, is working with LLNL to achieve this 
goal in hopes of decarbonizing their chemical products sector. 
Shell Oil has created an entire division to look at producing 
chemicals by this means, and also how to provide the large 
amounts of CO<INF>2</INF> that will be required.
    With renewable energy prices dropping steadily, we are 
optimistic that these approaches can become competitive with 
existing fossil-fuel approaches. In the event that long-lived 
products like polyethylene are produced, these processes become 
carbon negative. Future production of carbon fiber and carbon 
nanotubes is being investigated. These utilization approaches 
would both reduce our fossil fuel emissions, and create real 
negative emissions needed to hit our 2 degree C targets.
    Question 5. What does carbon utilization mean for the 
overall economics of making CCUS projects more cost 
competitive?
    Response.
     Utilization for EOR is generally considered to provide 
$30/ton of CO<INF>2</INF> in economic support. CO<INF>2</INF> 
use in concrete by CarbonCure reduces the overall cost of the 
product by making it slightly stronger. Use of CO<INF>2</INF> 
for algae may reduce the cost of carbon capture by 50 percent 
(these are very preliminary studies, but the reduction in 
expensive equipment is the main benefit).
     Future payments through the California LCFS (Oregon and 
British Columbia are starting similar systems) could reduce the 
cost of ethanol with CCS by $0.20/gallon including the costs of 
the CCS system. This is the only case that we know of where an 
actual profit, rather than a reduction in costs, accrues to 
CCS, and we expect it to revolutionize the Midwest U.S. ethanol 
industry. Unlike the EOR reduction however, this is a result of 
a policy action.
     The cost benefit of chemical and fuel production from 
CO<INF>2</INF> is not yet clear, but is not expected to be 
better than current embedded systems using fossil fuels until 
three events occur:

    1. Renewable energy is widely available.
    2. Effective systems to utilize these catalytic approaches 
are demonstrated, and,
    3. CO<INF>2</INF> supply is easy and inexpensive (a carbon 
economy exists).

     We expect CO<INF>2</INF> utilization to grow just as wind 
power did in the United States: early success at demonstration 
scale, a long period of industrial and business development, 
followed by unsubsidized commercial success in the not too 
distant future. c. Can carbon utilization play a major role in 
reducing the cost of capture for CCUS projects?
     CO<INF>2</INF> utilization doesn't actually reduce 
capital or operating costs--what it does is create new 
revenues. The additional revenues can be large enough to 
substantially reduce the integrated project costs and close the 
gap in financing projects.
     It already plays a major role in the large number of 
projects where EOR is utilized, and policy support for those 
efforts is likely to cause an increase in CCS projects. Algae 
efforts could play a major role to the extent that algae 
producers are successful in creating markets for their products 
(fuels are not considered a near-term economic target). They 
are gradually doing so. Turning CO<INF>2</INF> into new 
products, such as fuels and chemicals, is still in the research 
stage and is not likely to provide short-term cost reductions 
in CCS, although in the long run these may provide the carbon 
economy required to completely decarbonize our industrial and 
fuel sectors that currently lack options to meet 2050 targets.


                         3. direct air capture:


    The Climeworks direct air capture project in Zrich is a 
capture facility connected to an existing garbage incinerator 
that generates waste heat. This waste heat is used to power 
fans in the direct air facility, which suck outside air into a 
compressed air chamber. The plan is for the facility to take in 
900 tons/year of CO<INF>2</INF> , but the cost of capture for 
these types of plants is roughly $600/dollars a ton.
    Question 6. Dr. Bohlen why is the cost of capture for 
direct air capture so high? What can bring down the costs to 
make this technology more feasible?
    Response. The costs for CO<INF>2</INF> capture from air 
will always be more expensive than capture from power plant or 
industrial sites. This is because CO<INF>2</INF> concentrations 
are much lower in air (0.04 percent CO<INF>2</INF> ) than from 
flue gas streams (4-7 percent from natural gas power, 12-20 
percent from coal power, nearly 100 percent from ethanol 
fermenters, and 1-35 percent from most heavy industry 
smokestacks). The low partial pressure of CO<INF>2</INF> from 
air requires large surface area contactors, or much large 
systems, or much more strongly binding capture agents. All of 
these add substantial capital and/or operating costs.
    Despite these challenges, two companies are operating 
commercial units that capture CO<INF>2</INF> from the air. Both 
companies require relatively low-cost zero-carbon power ($0.03-
0.04/kW-hr) to achieve their current operating prices and 
performance.
     Climeworks, Zurich: A small Swiss company, Climeworks, 
has created the first commercial, for-profit direct air capture 
project. They have developed a robust, modular technology that 
capture 50 tons CO<INF>2</INF> /year, and have assembled 18 
modules that sell 900 tons/year of CO<INF>2</INF> to an organic 
greenhouse. Climeworks technology delivers food-grade 
CO<INF>2</INF> in one step, as well as two tons of water for 
every ton of CO<INF>2</INF> capture. This technology is born 
mass-producible, scalable, and robust.
     Carbon Engineering, Vancouver: A small, Canadian company, 
Carbon Engineering has assembled and innovated around existing 
commercial components to make a new system (like the Wright 
brothers building a plane out of bicylcle parts). They deliver 
lower purity CO<INF>2</INF> than Climeworks, but appear to have 
susbtantially lower capital and operating costs.
    Direct air capture can be deployed anywhere there is cheap, 
zero-carbon power. This creates a market value of avoided costs 
(e.g., no trucking or shipping). Early applications are likely 
to be in the food and carbonated beverage industry. It is also 
possible that they could sell CO<INF>2</INF> for EOR in 
locations where CO<INF>2</INF> supply is a challenge.
    Question 7. Do you think there is scaling feasibility for 
ocean direct air capture technologies to pull CO<INF>2</INF> 
from the ocean to precipitate carbonate building materials like 
limestone bricks or sand? Could the act of pulling 
CO<INF>2</INF> from seawater indirectly aid in our solutions 
for ocean acidification?
    Response. The cost of LLNL's ocean CO<INF>2</INF> capture 
system has not been established, and will require full scale 
demonstration of the sort being done in the air capture systems 
today. The advantage of our concept is that the ocean 
concentrates CO<INF>2</INF> due to biological activity, so we 
anticipate that we can improve on the cost of air capture 
systems. However, this is a fairly small difference, and 
capture from the ocean will still be more expensive than 
capture from any of the industrial sources we discussed above. 
It will, however, remediate some ocean acidification and of 
course the new advantage of the approach is that it will create 
new construction material in remote places. To be clear, we see 
direct ocean capture as providing both a new option and new 
benefit, and do not wish to criticize other air capture methods 
 
    It is difficult to speak authoritatively to scaling of a 
system like this, but our thought process is to design a system 
that runs entirely on wind (preferred for cost and 
availability), wave, or solar power. Those costs we know well 
today. Our system will most likely require a location where 
tidal currents bring fresh seawater to the extraction process. 
This is a cost advantage because those flows are predictable. 
The value of the created building material must be high, 
favoring distant islands or places like Japan--industrialized 
countries that lack those specific resources. On-shore use is 
likely to be less economic than simple truck-transport of 
building materials.
    The seawater exiting the process will be less acidic than 
the inlet. We anticipate that about 17,000 cubic meters will 
need to be processed to obtain one ton of CO<INF>2</INF> and 
two tons of calcium carbonate building material. That seawater 
will have a pH 0.1 pH units higher than the inlet, which would 
be a major factor for shellfish larvae which require high pH to 
make their first shells. Problems that may occur include 
clogging of the system by sea life (a constant problem for 
ocean water systems). We do not yet have an understanding of 
that difficulty.
    Regarding the feasibility of scaling, we think the chances 
are good. The ancillary benefits of more building material and 
less acidification will only increase as the system is deployed 
at larger scale. As with any new idea, there may be problems 
that only are exposed by demonstration and testing. We look 
forward to an opportunity to do that. c. In addition to paying 
direct air capture a carbon payment for their avoided 
emissions, like we do in our recently introduced bipartisan 
CCUS bill. What else can legislators to drive these 
technologies closer to commercialization?
    Systems such as the California Low Carbon Fuel System 
(LCFS) encourage rapid technology development. R&D on capture 
not from coal fired power is critical. Gas, industry, biofuel 
all need the kind of R&D that to date has been limited 
exclusively to coal by legislative language constraints. For 
the US Dept. of Energy to pilot and demonstrate those systems, 
amendment to appropriations language from the 2014, 2015, and 
2016 budgets would be required.
    Many potential policies could be considered. The most 
important and valuable policies would be ones which accomplish 
two goals. First, they should stimulate innovation for 
researchers and companies so as to improve performance and 
cost. Second, they should seek to create market pull for 
initial products and projects. Such policies could include tax 
incentives, grants, procurement requirements, product 
standards, feed-in-tarriffs, portfolio standards, and other 
policies to stimulate innovation and markets.
    The U.S. carbon management science effort has been 
incredibly effective and leads the world, but is almost 
entirely focused on coal. We believe that natural gas for power 
and industry, biofuel production, and chemical reactions 
intrinsic to many industrial processes like steel making, now 
deserve the attention of the Nation's outstanding scientific 
resources. R&D in these areas will yield benefits immediately.
    Fuels remain a major difficulty in U.S. carbon emissions. 
Two policies could help. 1) Encouragement of biofuel 
development and carbon management to reduce the carbon 
footprint of carbon fuels. 2) Encouragement of `overshoot' 
CO<INF>2</INF> EOR where more CO<INF>2</INF> is used than is 
needed, effectively reducing the carbon footprint of the oil, 
would have a very similar effect for fossil fuel production 
(for example, with residual oil zone (ROZ) production).
    These two approaches could be encouraged simultaneously by 
a single approach to low carbon fuels such as enhancing the 
Federal renewable fuel standard to encourage these approaches. 
That enhancement would improve the value of a RIN based on a 
better carbon footprint, encouraging both new processes as we 
have discussed, and overall efficiency in the production 
system. The California LCFS, with limited goals, has 
demonstrated how rapidly a process like this drives innovation. 
A similar change to RINs could have a nationwide effect, 
strongly improving the value of fuels made in America with 
forward-looking environmentally friendly processing.
    In the longer term, the management of CO<INF>2</INF> in our 
economy requires a new paradigm which we think of as the carbon 
economy. CO<INF>2</INF> can be a feedstock, along with natural 
gas, for most of our industrial chemicals and fuels. The US has 
rich carbon resources and nearly unlimited renewable power 
which can create the new carbon economy and all the jobs and 
industries it entails. Investment at all levels of science and 
engineering will encourage this result--one we need to have in 
place by roughly 2050 to have any hope of meeting 2:C. Our 
renewable revolution took that much time and a major investment 
of government and academic science, as well as many thoughtful 
policies to support the creation of new businesses to implement 
that science.
    4. Emissions Free Grid by 2050:
    Each witness from the hearing discussed different clean air 
technologies that if developed and commercialized can reduce 
our emissions footprint. There is international agreement that 
CCUS and other renewable technologies can play a role in 
helping us cut emissions consistent with meeting our 2C 
targets, in a way that is sustainable and economically sound.
    a. Why are your labs prioritizing research in clean energy 
technologies like this?
    As part of our missions for science in public service and 
to prevent and mitigate national security threats, we believe 
an emissions-free grid is both necessary and feasible. 
Investments over the last 20 years have made remarkable 
progress possible--wind and solar are now are the cheapest 
sources of power. Carbon capture and storage is demonstrated 
and safe. The investments in research have demonstrated their 
value. b. What role will advanced nuclear and carbon capture 
and utilization play in helping us meet our climate targets and 
having an emissions free grid by 2050?
    Costs are now driving utility's choices in power production 
technology. The biggest gap in the present low-cost 
technologies is that renewables need something like storage or 
another zero-carbon source to make up their shortfalls when the 
wind and sun are not available. Today gas fills that role, but 
a zero-carbon electric system requires either massive storage 
with no gas, or CCS on gas. CCS on gas is possible today, and 
deserves the attention of policymakers. The U.S. vast reserves 
of natural gas can play a key role in electric power and 
hydrogen for industry, with thoughtful application of CCS.
    The existing fleet of nuclear plants are an irreplaceable 
resource for carbon-free electricity. Along with hydro they 
simply make it easier to meet our other goals, which ultimately 
are driven by capital costs. Where will the Nation get the 
capital to build the power fleet we want? Many of our choices 
will take advantage of existing power infrastructure. While we 
are hopeful for advanced nuclear technology, it does not yet 
appear to have a cost structure that will enable it to 
penetrate the U.S. market. In particular, the two challenges of 
high capital costs of contruction and robust and swift 
licensing require more focused work to overcome these 
challenges.
    Utilization will play the same role in the future that 
recycling does today in reducing waste. Once the technologies 
are available, industries will choose to treat CO<INF>2</INF> 
as a feedstock. Cheap renewable power will make this possible, 
and the ability to make products onsite in small inexpensive 
reactors instead of at massive refineries half the world away 
will open new possibilities for business to be efficient and 
flexible.
    An immediate benefit of utilization technologies is as an 
energy storage mechanism. Both methane and transportation fuels 
can be made at any time and stored for almost nothing. With 
appropriate S&T to make those transformations affordable, this 
can be an excellent way to store our bounty of renewable 
energy, without the large capital investment required for 
battery storage.

    Senator Capito. Thank you very much.
    Our next witness, as introduced by Senator Alexander, is 
Dr. Moe Khaleel, of Oak Ridge National Laboratory. He is 
Associate Lab Director for Energy and Environmental Sciences.
    Welcome, Doctor.

STATEMENT OF MOE KHALEEL, ASSOCIATE LAB DIRECTOR FOR ENERGY AND 
         ENVIRONMENTAL SCIENCES, OAK RIDGE NATIONAL LAB

    Mr. Khaleel. Chairman Capito, Ranking Member Whitehouse, 
and members of the Committee, thank you for the opportunity to 
appear before you today with this distinguished panel.
    Reliable energy is the foundation of our competitive 
national economy and our way of life. Reliable and sustainable 
energy requires a diverse mix of resources, including nuclear 
energy and fossil fuels.
    To support a healthy energy portfolio that includes 
abundant domestic resources such as coal, oil, and natural gas, 
ORNL performs transformative science-driven solutions to better 
capture, utilize, and store carbon dioxide emitted from power 
plants.
    Just in the past 8 months ORNL announced two remarkable 
breakthroughs in carbon capture and conversion. We discovered a 
simple, reliable process to capture CO<INF>2</INF> directly 
from ambient air, offering a new and potentially cheaper option 
for carbon storage. The method uses a simple compound that 
binds strongly with atmospheric CO<INF>2</INF> and forms a 
crystal. The CO<INF>2</INF> gas can later be easily separated 
from the crystal structure at mild temperatures. The new ORNL 
method offers a less energy-intensive alternative.
    In another breakthrough, ORNL scientists created a new 
catalyst that converts carbon dioxide directly into ethanol. It 
is very difficult to go straight from carbon dioxide to ethanol 
with a single catalyst. The process did so at high volumes, 
turning CO<INF>2</INF> into ethanol with a yield of 63 percent 
in the lab.
    These are just two examples of how ORNL's deep expertise in 
material science can be used to accelerate clean energy 
innovation.
    We are also pursuing in our research a deeper understanding 
of the subsurface environment so we can better store 
CO<INF>2</INF> and energy. Our scientists have used isotopes 
and tracers to decipher how CO<INF>2</INF> moves into storage 
caverns. We have devised sensors for harsh environments and 
novel computational imaging to explore oil and gas reservoirs 
and to ensure well-borne integrity in drilling operations.
    Our high-performance computing resources at Oak Ridge, like 
Titan, the Nation's most powerful supercomputer, have been 
essential to model and simulate the subsurface, and to test the 
clean coal technologies and compression systems used to store 
CO<INF>2</INF> .
    For nearly 75 years ORNL has discovered the best ways to 
harness nuclear energy to provide electricity. The first 
nuclear power produced as electricity in the world came from 
the experiments with the Lab's graphite reactor in the 1940's.
    The challenge is an urgent one. It is estimated that some 
100 gigawatt of electricity could be retired in a relatively 
short period of time beginning in the early 2030's. ORNL is 
answering the challenge with leading research in the entire 
nuclear fuel cycle. From the development of new materials to 
new reactor technologies, our expertise and capabilities reduce 
the time from scientific discovery to usage.
    ORNL's supercomputers support modeling and simulation of 
new materials and reactor designs. For example, the Consortium 
for Advanced Simulation of Light Water Reactors program at Oak 
Ridge was used to aid the startup of a new unit at the 
Tennessee Valley Authority's Watts Bar Nuclear Power Plant in 
October 2016. ORNL is pursuing scientific research of small 
modular reactors. These reactors can be tailor-made for 
specific local needs, requiring a smaller geographic footprint 
and fewer operating personnel.
    We are also researching molten salt reactor technology. 
These reactors use liquid salt as a coolant and offer better 
safety margins than conventional light water reactors.
    The national labs, including Oak Ridge, are uniquely 
positioned to address clean energy challenges with 
transformative scientific breakthroughs and to sustain American 
leadership.
    Thank you for the opportunity to be here today and to share 
with you what we see as some of the solutions for a reliable 
clean energy portfolio for the Nation. I welcome any questions 
you may have. Thank you.
    [The prepared statement of Mr. Khaleel follows:]
    
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    
           Responses of Moe Khaleel to Additional Questions 
                         from Senator Barrasso

    Question 1. For each of the following countries, would you 
please provide a list of the advanced, non-light water reactor 
designs either under construction or operating: United States, 
China, and Russia.
    Response. The following information is from the World 
Nuclear Association with regards to non-light water reactors 
currently operating or under construction.
    United States:
    None.
    China:
    A high temperature reactor (HTR) was built in China and 
wpent operational in 2003 after achieving its first criticality 
in 2000. China is also developing a high temperature gas 
reactor (HTGR) that began construction in 2012 and is expected 
to be connected to the grid by the end of 2017. China is 
currently marketing its HTGR technology and has recently signed 
a cooperative agreement with Saudi Arabia. China also has a 
sodium-cooled fast neutron reactor, the Chinese Experimental 
Fast Reactor that started operation in July 2010 and was built 
in cooperation with various Russian institutes. Although this 
reactor was connected to the grid in 2011, it has been operated 
sporadically since that time. China has signed additional 
agreements with Russia to further develop larger-scale fast 
reactors.
    Russia:
    The BN series of reactors at the Beloyarsk Nuclear Power 
Station in Russia are fast breeder reactors that support the 
use of a closed nuclear fuel cycle with mixed oxide fuels. Over 
recent decades, Russia has consistently invested in the 
development of breeder reactor technologies. Two are currently 
operating at the Beloyarsk site. Russia is also pursuing a 
number of fast reactor demonstration projects. These include 
the SVBR (Svintsovo-VIsmutovyi Bystryi Reaktor) 100 MWe, Pb-Bi 
cooled fast reactor, the BREST (Bystryi Reactor so Svintsovym 
Teplonositelem) 300 MWe, Pb-cooled fast reactor, and the 
multipurpose fast research reactor, MBIR, rated at 150 MWt.
    Question 2. S. 512 contains robust provisions directing the 
Nuclear Regulatory Commission to develop a regulatory framework 
for licensing advanced reactors. What more can be done to 
improve the regulatory environment for advanced reactors in 
addition to enacting these provisions into law?
    Response. In addition to examining licensing process 
options such as the staged licensing discussed in the bill, it 
is imperative that the Nuclear Regulatory Commission (NRC) 
undertake efforts to modify its licensing infrastructure to 
accommodate the licensing of advanced reactors. The first step 
in this process at the top level is underway with the NRC's 
issuance of a draft regulatory guide (RG) on the development of 
design criteria for advanced reactors. These criteria are 
derived from 10 CFR 50 Appendix A, and they are essentially 
light water reactor (LWR)-centric. This work resulted from a 
collaboration between the NRC and the Department of Energy 
(DOE) in which DOE laboratories drafted a proposed set of 
design criteria and provided them to the NRC for their 
consideration.
    Equivalent versions of the NRC's Standard Review Plan 
(NUREG-0800) for LWRs are needed for liquid-metal, gas-cooled, 
and molten salt reactors to provide guidance to NRC staff on 
how to review license applications and potential licensees. The 
next level of documents that underpin the NRC Standard Review 
Plan are regulatory guides (RGs). These RGs must be reviewed to 
identify guidance that must be adapted for the various advanced 
reactor types to determine what, if any, new RGs might be 
needed. The RGs in many instances endorse national consensus 
standards as a means of meeting NRC requirements. DOE could 
take the lead responsibility to work with standards 
organizations to identify and support the development of needed 
standards for advanced reactors.
    In summary, it is important to understand: (1) the 
relationships and dependencies of the several document types 
noted above that form the licensing infrastructure, and (2) 
that efforts need to start now for the NRC to be prepared to 
license advanced reactors. The NRC can license by exception, 
but that approach will likely be quite costly and would lack 
certainty for potential licensees.
    Question 3. What more could DOE be doing to accelerate the 
development of Small Modular Reactors and demonstrate their 
ability to provide secure and highly reliable power for DOE and 
DOD national security and mission critical activities?
    Response. DOE could accelerate development of small modular 
reactors (SMRs) by fulfilling the role as a ``first mover'' by 
deploying SMRs selectively across the US. In this role, DOE 
would assist in development of the supply chain that is 
critical to the success of any new reactor type. The supply 
chain provides jobs and re-establishes the needed commercial 
nuclear infrastructure. This effort would also support future 
deployment of advanced reactor technologies. Oak Ridge National 
Laboratory (ORNL) has conducted studies identifying small 
regional areas or clusters where the combined power needs of 
governmental agencies--largely driven by Department of Defense 
(DoD) military sites--match very well with electrical 
generation power capacities of SMRs. Early deployments would 
provide the SMR community with the needed opportunity to 
demonstrate their reliable, safe operations, which in turn 
could result in follow-on deployments in the US and 
internationally.
    An additional area that could be addressed relates to the 
implications of having a limited number of personnel operating 
two or more reactor units. One of the prime cost savings areas 
associated with SMRs is based on the ability to limit the 
number of control centers for a suite of reactor units. 
However, the operational processes and challenges have yet to 
be fully examined and could be an area of contention in the 
licensing process. In addition, DOE could support efforts to 
develop the scientific basis for evaluating the passive safety 
systems and the main criteria that the NRC would need to 
consider for evaluating these systems. Appendix K of 10 CFR 50 
is currently being used to establish the regulatory 
requirements for the emergency core coolant systems based on 
active cooling, whereas some SMR designs rely on passive 
cooling systems.
    In addition to LWR SMR designs, several non-LWR SMR designs 
are being considered under advanced reactor concepts. Several 
companies are designing advanced SMRs around molten salt, 
sodium cooled, and HTGR technologies. DOE's research and 
development efforts in areas such as new materials for extreme 
environments, predictive modeling and simulation, and 
regulatory approaches are important for enabling the deployment 
of such technologies.
    Question 4. What can the labs do to help make sure that 
Small Modular Reactors can be manufactured and constructed with 
the most advanced methods?
    Response. National laboratories provide the fundamental 
scientific knowledge for the application, development, and 
demonstration of nuclear science and technology. Modular 
construction techniques have been perfected for the design of 
nuclear powered submarines and ships. Knolls Atomic Power 
Laboratory and Bettis Atomic Power Laboratory have been 
instrumental in the design process for the US Nuclear Navy.
    An appropriate role for national labs, like ORNL for 
example, may be to establish component prototyping centers 
using capabilities in materials, neutrons, and modeling and 
simulations at exascale to develop and deploy innovative 
manufacturing technologies, where advanced manufacturing and 3D 
printing at DOE's Manufacturing Demonstration Facility can be 
used to design, print, and test reasonably sized components in 
representative experimental facilities. These efforts would be 
followed by design modifications as needed. Related activities 
are being performed at DOE facilities today under programs 
through the Advanced Manufacturing Office within DOE's Office 
of Energy Efficiency and Renewable Energy. New materials and 
processes have been demonstrated for first-of-a-kind products 
at ORNL, such as wind turbine forms, pressure hulls for small 
submersibles, and large-scale excavating equipment. Such an 
approach for nuclear manufacturing could help shorten the time 
to develop and qualify components, thus reducing costs and time 
to commercialization.
    Question 5. Industry, the national labs, and the Nuclear 
Regulatory Commission need employees with specialized skill 
sets in nuclear-related disciplines to accomplish their 
missions. Is enough being done to ensure universities produce 
adequate numbers of graduates in these fields?
    Response. Currently, Federal agencies provide direct 
support to nuclear engineering programs through NRC, DOE and 
the National Nuclear Security Administration (NNSA). Congress 
has generously appropriated funding to each of these 
organizations to support US university programs. In addition, 
the DOE Office of Nuclear Energy (DOE-NE) also allocates a 
portion of its research and development budget to the 
university program through competitive grants that support the 
DOE-NE mission. These efforts have helped sustain and maintain 
interest in nuclear science and technology.
    As an example, this program could be modeled after the 
DOE's NNSA Nuclear Security Education Program to establish a 
graduate-level program to develop and educate the next 
generation of engineers with careers in the nuclear fields.
    In addition, consideration should be given to funding 
focused internships at DOE labs, the NRC, utilities operating 
commercial nuclear plants, and reactor design developers. 
Industry-national lab-university focused advisory councils 
provide unique opportunities to inform stakeholders of the 
barriers and challenges facing the nuclear energy sector. The 
goal is to create visibility and enthusiasm among students 
while better preparing them for the nuclear energy job market.

           Responses of Moe Khaleel to Additional Questions 
                    from Senator Sheldon Whitehouse


                     1. ccus technologies general:


    During the hearing, I mentioned several CCUS projects that 
have come online in recent years. This includes the Iceland 
Carbfix Program, the Climeworks Direct Air Capture facility in 
Switzerland, the BioProcess H2O ethanol facility, and the 
Boundary Dam III carbon capture facility in the Canadian 
Province of Saskatchewan. These facilities cover a broad 
variety of CCUS technologies that includes coal, ethanol, 
permanent sequestration, and direct air capture.
    Question 1. Can you discuss the other promising CCUS 
technologies that have come online in recent years either at 
the pilot scale or larger? What are the economics of these 
projects that allow them to operate?
    Response. Our understanding is that many carbon capture 
technologies have been demonstrated at pre-production scales, 
but additional research and testing is required to validate 
long term and commercial scale viability of the various 
approaches. Many recent pilot scale efforts have involved 
solvent, sorbent, and membrane separation technologies, but key 
limitations have yet to be resolved.
    For example, the energy costs for process steps such as 
regeneration or desorption of solvent and sorption must be 
addressed through additional research and development (R&D). 
Membrane technologies must address significant technical 
challenges such as throughput enhancement and fouling 
mitigation. ORNL is developing high-throughput, polymer-based 
membranes that may overcome existing barriers. Finally, there 
are earlier stage separation approaches, such as chemical 
looping combustion, that hold promise but require 
experimentation before they can be implemented at the scales 
needed for carbon capture, utilization, and storage (CCUS).
    There is a strong need for a large-scale (ideally gigatons 
of CO2) geologic sequestration demonstration in the United 
States. One project not mentioned above that we are familiar 
with is the Nagaoka CO2 storage project, in Nagaoka, Japan. 
From 2003 to 2005, 10,499 tonnes of CO2 was injected into an 
onshore deep oil and gas reservoir and CO<INF>2</INF> plume 
migration and its reaction with the surrounding rock are 
currently being monitored.
    The CO<INF>2</INF> was from ammonia production, and was 
transported to the site by truck. The cost was approximately 
$67 per tonne of CO<INF>2</INF> sequestered, including 
separation/capture pressurization (57 percent of cost), 
transport (11 percent of cost), and injection (32 percent of 
cost). Economic analysis found that cost reductions need to 
occur in the separations and capture processes, that 
utilization of reservoirs near emissions sources reduced costs 
significantly, and that injection capacity should be increased.
    The DOE Energy Frontier Research Center for Nanoscale 
Controls of Geologic CO<INF>2</INF> made the study site a focus 
of its research to examine the capacity to precipitate 
CO<INF>2</INF> in the form of carbonate minerals, helping to 
determine the long term storage security of the CO<INF>2</INF> 
. Researchers found evidence for substantial reaction with 
volcanogenic minerals in the rock, suggesting that storage 
security would be high because CO<INF>2</INF> would be 
immobilized in mineral phases.
    An example of a recent carbon utilization project is in the 
city of Saga, Japan. There, Toshiba Corporation completed a 
system in August 2016 to capture up to 10 tons of 
CO<INF>2</INF> per day from flue gas at a municipal waste 
incineration plant. The technology was originally developed for 
cabon capture at power generation plants.
    Saga has constructed a pipeline to deliver the captured 
CO<INF>2</INF> to an adjacent facility where it is used in 
algae cultivation. The algae is then used to produce raw 
materials for cosmetics and nutritional supplements. Utilizing 
the CO<INF>2</INF> supply in a process to make aviation 
biofuels from algae is also being studied. The Saga carbon 
capture and utilization project was estimated to cost 
approximately US$15 million.
    Question 2. Can you also discuss what CCUS technologies you 
believe could be coming online over the next several years as 
it relates to both CCUS and direct air capture?
    What types of CCUS technologies hold the most promise as it 
relates to reducing our emissions to address climate change?
    Response. These two questions have some similarities, so I 
will address them together.
    Use of captured CO<INF>2</INF> for enhanced oil recovery 
(EOR) holds promise because there is an economic incentive to 
utilize the CO<INF>2</INF> . However, beyond developing 
efficient carbon capture technologies, establishing the long-
term fate and transport of the CO<INF>2</INF> and its storage 
security is necessary if EOR is to be used for sequestration, 
as opposed to production.
    About 80 percent, or 9 million metric tons of captured 
CO<INF>2</INF> used by industry is in enhanced oil and coal-bed 
methane recovery operations. Estimated net marginal value for 
CO<INF>2</INF> in EOR varies widely with oil price and field 
conditions. According to one 2014 estimate, the value one would 
be willing to pay to have CO<INF>2</INF> delivered at a field 
varies between approximately 5/tCO<INF>2</INF> to $66/
tCO<INF>2</INF> , with the highest values applying in times of 
high oil price. Another estimate ranges US $4/tCO<INF>2</INF> 
to $8/tCO<INF>2</INF> .
    Direct air capture (DAC) of CO<INF>2</INF> is an attractive 
CCUS technology as it could be employed anywhere and would not 
be subject to fouling by contaminants such as sulfur oxide and 
nitrogen oxide often present in smokestacks. The process could 
provide a ready feedstock of CO<INF>2</INF> for utilization 
technologies such as fuel production.
    Researchers are currently focused on chemical sorbents that 
can effectively remove CO<INF>2</INF> at low concentrations in 
the atmosphere--including calcium hydroxide, which binds with 
CO<INF>2</INF> to form calcium carbonate. However, the process 
to separate out the captured CO<INF>2</INF> from the calcium 
carbonate for utilization or storage is currently considered 
too energy-intensive and inefficient. Other proposed approaches 
include mineral carbonation and electrochemical processes, the 
use of membranes, and photocatalytic CO<INF>2</INF> conversion. 
All require further exploration.
    As an example, our ORNL scientists discovered a low-cost 
method of DAC that requires minimal energy and chemical input. 
The method uses a simple compound known as guanidine that 
captures CO<INF>2</INF> from the air and binds it as a 
crystalline carbonate salt. Releasing the carbon from the 
crystal is accomplished through mild heating. While the 
findings are promising, more R&D is needed to explore and 
potentially scale up the process. Our scientists are using the 
Spallation Neutron Source at ORNL to analyze the carbonate 
binding in the crystals with the aim of designing a next 
generation of sorbents.


                         2. carbon utilization:


    To address climate change, we must reduce our emissions 
from multiple sectors, including the power, industrial sector, 
and transportation sector. As discussed during the hearing, 
BioProcess H2O is unique as it reduces emissions from an 
ethanol plant.
    Question 3. What are the different forms of carbon 
utilization that have proven to work at the pilot scale? In 
your opinion what are the promising carbon utilization 
technologies that have not yet been tested at the commercial 
scale?
    Response. Carbon utilization can be divided into four broad 
categories: direct utilization, biological utilization, 
geologic utilization, and chemical utilization. CO2 utilization 
remains a challenge due to both the life-cycle energy 
considerations and the potential requirements for the CO2 
stream (such as purity).
    Current commercial direct uses of CO<INF>2</INF> include 
processes for carbonation for beverages, and as a supercritical 
solvent. The magnitude of these uses is stable and small 
relative to carbon emissions.
    Biological utilization of enriched CO<INF>2</INF> stream 
has been demonstrated with algae at pilot scale and beyond. 
Several companies are pursuing and selling products in high-
value arenas such as for feed. However, challenges remain to 
lower costs and improve yields for fuels and commodity 
chemicals.
    While geological utilization for enhanced oil recovery is 
demonstrated, more long-term research on the fate of 
CO<INF>2</INF> pumped belowground is needed. Chemical 
utilization is mostly at the pre-pilot scale to convert 
CO<INF>2</INF> into chemicals such as carbon monoxide or 
hydrocarbons using renewable heat, light, and electricity.
    The biological, electrochemical, photochemical and various 
hybrid combinations are promising approaches that would require 
more R&D, including demonstrations. For example, at ORNL we 
have developed a simple, efficient process to convert 
CO<INF>2</INF> directly into ethanol. The method uses a 
nanotechnology-based catalyst made from copper, carbon, and 
nitrogen, and applied voltage that triggers a chemical 
reaction. With the aid of the catalyst, we demonstrated a 
conversion to ethanol with a yield of 63 percent in the 
laboratory. The process operates at room temperature in water. 
In addition to removing carbon from the atmosphere, the process 
could be used to store excess electricity as ethanol. Doing so 
would help to balance a power grid supplied by intermittent 
renewable energy sources. This laboratory-scale process also 
needs further R&D to be proven effective at a larger scale, 
however.
    The Carbon X-Prize provides an excellent cross-section of 
CO<INF>2</INF> utilization technologies in early commercial 
development by 23 teams from six countries. These teams are 
pushing the boundaries of CO<INF>2</INF> utilization to create 
breakthrough solutions to turn waste (CO<INF>2</INF> emissions) 
into valuable products such as fish food, fertilizer, carbon 
nanotubes, and building material. The teams are listed at 
http://carbon.xprize.org/teams.
    Question 4. What does carbon utilization mean for the 
overall economics of making CCUS projects more cost 
competitive?
    Can carbon utilization play a major role in reducing the 
cost of capture for CCUS projects?
    Response. These two questions have some similarities, so I 
will address them together.
    According to both the International Energy Agency and the 
Intergovernmental Panel on Climate Change (IPCC), CCUS can play 
a critical role in emissions reduction. It is unlikely that key 
industrial sources, which generate approximately 20 percent of 
greenhouse gas emissions, can be decarbonized without CCUS. 
However, CCUS is a capital-intensive enterprise that has not 
fully advanced to the point of broad commercialization.
    Carbon utilization (CU) can help with the economics of CCUS 
in any case where the utilization value of CO<INF>2</INF> minus 
the transportation cost to the point of use is positive. In 
that case it can defray the cost of capture and avoid the cost 
of sequestration or emission. A range of advanced CU concepts 
are being evaluated, including conversion of CO<INF>2</INF> to 
fuels, chemicals, and building materials.
    It is important to recognize that in terms of 
CO<INF>2</INF> emissions, CCU is not a one-for-one substitute 
for CCS because the utilized CO<INF>2</INF> might eventually be 
re-emitted to the atmosphere. However, a carbon atom that is 
captured and reused can replace a carbon atom from fossil 
sources, thereby limiting total emissions. Life-cycle analysis 
of energy use and emissions is important to the comparative 
economics of carbon utilization.


                    3. emissions free grid by 2050:


    Each witness from the hearing discussed different clean air 
technologies that if developed and commercialized can reduce 
our emissions footprint. There is international agreement that 
CCUS and other renewable technologies can play a role in 
helping us cut emissions, in a way that is sustainable and 
economically sound.
    Question 5. Why are your labs prioritizing research in 
clean energy technologies like this?
    Response. DOE's scientific and technical capabilities are 
rooted in its system of national laboratories--17 world-class 
institutions that constitute the most comprehensive research 
and development network of its kind. The laboratories work as a 
network with academia, industry, and other Federal agencies to 
ensure America's security and prosperity by addressing its 
energy, environmental, and nuclear challenges through 
transformative science and technology solutions.
    The advancement of clean energy ensures that the United 
States will have abundant, reliable resources for a robust 
economy while protecting the environment and health of its 
citizens. Reliable energy requires a diverse portfolio ranging 
from safe, clean, nuclear and fossil fuel plants backed by 
carbon capture, utilization, and sequestration, to renewable 
resources essential to our domestic economic engine and our 
competitiveness abroad.
    The challenge of ensuring our energy resources are clean 
and reliable requires sustained research and development. These 
transformative scientific discovery programs address technical 
and regulatory risk, improve economic competitiveness, develop 
the next generation of scientists and engineers, establish 
advanced facility capabilities, and address the entire fuel 
cycle. Rapid innovation will also be essential to achieve 
success on the time scale needed to replace retiring generation 
capacity and to enable deployment of new technologies.
    Through these activities--conducted at large scales and 
with significant, long-term investments of resources, including 
world-class scientific and technical expertise--DOE's national 
laboratory enterprise serves as an enduring science and 
technology powerhouse for the Nation.
    Question 6. What role will advanced nuclear and carbon 
capture and utilization play in helping us meet our climate 
targets and having an emissions free grid by 2050?
    Response. The United States cannot have an emissions-free 
grid by 2050 without increased use of nuclear energy and 
commercialization of effective carbon capture technologies. 
Carbon emissions cannot be eliminated through use of wind, 
solar, and other renewable sources alone.
    Advanced nuclear reactor concepts offer significant 
potential advantages relative to current light water reactor 
technology in terms of improved safety, cost, performance, 
sustainability, and reduced proliferation risks. DOE has 
recently stated that by 2050, advanced reactors will provide a 
significant and growing component of the nuclear energy mix 
both domestically and globally, due to advantages in terms of 
improved safety, cost, performance, sustainability, and reduced 
risk of proliferation. Nuclear energy, which currently accounts 
for more than 60 percent of carbon-free electricity production 
in the United States, can be expected to grow even more with 
the introduction of advanced reactor technology.
    Carbon capture and utilization (CCU) is also expected to 
contribute to reducing emissions of greenhouse gases from 
various industrial and manufacturing sectors, although the main 
benefits likely to be derived from CCU lie in offsetting the 
use of petroleum products in the production of transportation 
fuels, chemicals, and high-value products that would otherwise 
be derived from petrochemical feedstocks. The current global 
demand for chemicals does not have the capacity to sequester 
enough CO2 emissions to contribute significantly to meeting 
carbon reduction targets.


              4. advanced reactors and model simulations:


    Dr. Khaleel, you discussed several modeling tools used in 
nuclear research in your testimony, this includes CASL and the 
Virtual Environment for Reactor Development (VERA). You stated 
that CASL was used to simulate 14 cycles (20 years) of the TVA 
Watts Bar Unit 1 and operations and simulation of Watts Bar 
Unit 2 startup. Other uses included modeling and simulation for 
accident tolerant fuels and use in advanced reactor research.
    Question 7. Can you discuss whether these modeling tools 
should be used in the development and potential licensing of 
non-light water reactors?
    Response. Modeling and simulation tools that are applicable 
to advanced non-LWRs are essential for supporting concept 
development, reactor design, reactor safety analysis, 
regulation, and licensing. The primary driver for this need is 
the limited operational and experimental data available for 
advanced concepts--particularly in comparison to the mature LWR 
industry. Most available advanced reactor data resulted from 
the US reactor development programs in the 1950's through the 
1980's. Development of additional required data is difficult 
due to the lack of test reactor facilities and the significant 
time and expense required. Therefore, modeling and simulation 
is crucial to supplement the historical data, to make the best 
use of current experimental programs, and to optimize future 
experimental programs.
    Many modeling tools for advanced reactors are relatively 
old and do not conform to modern software practices. 
Furthermore, these tools do not take advantage of the 
significant advances in computing. The capabilities being 
developed in VERA under the Consortium for Advanced Simulation 
of Light Water Reactors (CASL) are for LWRs, but their basis 
allows them to be extended to non-LWRs. In addition, DOE-NE 
also established the Nuclear Energy Advanced Modeling and 
Simulation (NEAMS) program to develop modeling capabilities for 
non-LWRs. NEAMS has mostly focused its multiyear development 
efforts on high-fidelity simulations for sodium fast reactors, 
but a planned consolidation of CASL and NEAMS offers an 
opportunity for DOE to leverage tools from both programs and 
expand these capabilities to support numerous reactor types. 
Engagement with companies developing advanced reactor concepts 
through the Gateway for Accelerated Innovation in Nuclear has 
also established the need to develop new modeling capabilities 
to support their activities.
    Question 8. Is there a role for modeling simulations for 
licensing of advanced reactors, for testing different materials 
that may be more resistant to radiation?
    Response. The licensing of advanced reactors relies on 
modeling to perform the required safety analysis to understand 
the performance of the reactors in normal and postulated off 
normal conditions. Typically, this analysis is performed by the 
reactor designer, and the regulator may perform a confirmatory 
analysis as part of its review processes. In ``NRC Vision and 
Strategy: Safely Achieving Effective and Efficient Non-Light 
Water Reactor Mission Readiness,'' the NRC has stipulated that 
``staff must have adequate computer models and other analytics 
resources to conduct its review of non-LWR designs in an 
independent manner.''
    Modeling supports development of new materials in several 
ways, including fundamental atomistic simulations of materials 
in the appropriate environments (radiation, temperature, etc.) 
to investigate performance and to identify promising materials. 
Modeling also supports experimental irradiations used to test 
the materials by simulating test reactor conditions to ensure 
that the experiments will meet the test objectives. Modeling is 
also used to extrapolate and compare performance of materials 
under test conditions to performance in an actual reactor, 
which may scale to longer periods of time, such as throughout 
the entire 40-to 60-year expected reactor lifetimes.

    Senator Capito. Thank you so much.
    And finally we have Dr. Kemal Pasamehmetoglu. He is 
Associate Laboratory Director for the Nuclear Science and 
Technology Directorate at Idaho National Laboratory.
    Welcome, Doctor. Thank you.

    STATEMENT OF KEMAL PASAMEHMETOGLU, ASSOCIATE LABORATORY 
   DIRECTOR, NUCLEAR SCIENCE & TECHNOLOGY DIRECTORATE, IDAHO 
                      NATIONAL LABORATORY

    Mr. Pasamehmetoglu. Thank you, Chairwoman Capito and 
Ranking Member Whitehouse. I truly appreciate the opportunity 
to testify in this subcommittee today.
    I was going to say a few words about the existing fleet and 
the value of nuclear energy, but I believe Senator Alexander 
did a great job in summarizing that, so I am quickly going to 
jump into looking into the future and what might be coming to 
meet the needs of twenty-first century energy.
    As you know, there are a number of advanced reactor 
concepts that are being developed out there. They do have 
certain advantages compared to the existing fleet. I believe 
the existing fleet will continue to serve us well for a few 
more decades, but at some point we have to transition into 
those advanced concepts.
    When we talk about advanced reactors, it is not just one 
type of reactor that we are talking about; there are multiple 
companies, private sector developing different types of 
reactors. The ones that are closer to deployment, I believe, 
are what we refer to as the small modular reactors that are 
cooled by light water. They do offer some advantages in terms 
of the manufacturability, as well as the inherent safety 
features of those, but there are also reactors that are not 
cooled by water. Water has been the traditional coolant ever 
since we started nuclear energy production in our Nation, but 
there are some advantages to go to other types of coolants.
    Those sorts of reactors are cooled by molten metals, sodium 
or lead. They operate at higher temperatures. They also offer 
certain safety advantages in terms of inherent safety. Then 
there are reactors that operate at even higher temperatures. 
They are typically cooled by either molten salt or helium gas; 
and those reactors not only have higher efficiency in terms of 
electricity production, but they can also be useful for process 
heat applications, so using nuclear energy above and beyond 
what we can do in the electricity sector.
    And, finally, there is a set of reactors that combines the 
coolant and the fuel together. We refer to those as the molten 
salt fueled reactors. Basically, the fuel is dissolved in the 
molten salt and travels through the reactor core. They operate 
at high temperatures, as well, and they do offer some safety 
benefits just because the coolant and the fuels are combined 
together.
    Overall, when we look at those advanced reactors, the 
advantages are economics, higher efficiency due to the higher 
temperatures, the inherent safety features, and fuel forms that 
they use that can benefit in terms of resource utilization, 
wider range of applications in case of incidental conditions, 
and associated power conversion systems.
    Now, I am sure you are all aware that there are multiple 
companies developing these technologies, but development of 
these technologies are expensive and require really expensive 
facilities for research and development. In November 2015, 
Department of Energy announced an initiative. Shortly, we refer 
to it as the GAIN Initiative, which is Gateway for Accelerated 
Innovation in Nuclear, and its premise is trying to provide 
easy access for those startup companies to the capabilities 
that exist primarily at the government sites at the national 
laboratories.
    In less than 2 years, I believe that GAIN has already made 
an impact in advancing some of those concepts considerably, or 
at least identifying the key issues.
    In the last part of my talk, I just want to--did I run out 
of time?
    Senator Capito. You are getting close.
    Mr. Pasamehmetoglu. I want to say a few words about Idaho 
National Laboratory. Very quickly, it is the lead nuclear 
energy laboratory; however, not all the capabilities require to 
advance these advanced concepts are located at Idaho. We create 
partnerships with other sister laboratories, universities, and 
industry to advance these concepts, and the larger experimental 
facilities, such as the test reactor and the large hot cells 
and facilities where we need to deal with nuclear materials are 
located in Idaho, and they are being used today to advance 
these technologies.
    [The prepared statement of Mr. Pasamehmetoglu follows:]
    
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
       Responses of Kemal Pasamehmetoglu to Additional Questions 
                         from Senator Barrasso

    Question 1. For each of the following countries, would you 
please provide a list of the advanced, nonlight water reactor 
designs either under construction or operating: United States, 
China, and Russia.
    Response.
    United States: Under Construction:
    None Operating: None
    China: Under Construction: Shidaowan 1--High Temperature 
Gas Reactor (HTGR)
    Operating: China Experimental Fast Reactor (CEFR)--Sodium-
cooled Fast Breeder Reactor (FBR)
    Russia: Under Construction: None
    Operating: Beloyarsky-3 (BN-600)--Sodium-cooled FBR 
Beloyarsky-4 (BN-800)--Sodium-cooled FBR
    Question 2. S. 512 contains robust provisions directing the 
Nuclear Regulatory Commission to develop a regulatory framework 
for licensing advanced reactors. What more can be done to 
improve the regulatory environment for advanced reactors in 
addition to enacting these provisions into law?
    Response. S. 512's robust provisions are an excellent start 
toward the regulatory changes that need to be implemented in 
order to protect U.S. leadership in nuclear energy innovation. 
To further protect U.S. leadership, additional measures should 
be designed to accelerate the timeframe and mitigate the cost 
of bringing innovative advanced nuclear technologies through 
the technology and demonstration stages to prepare them for 
market. The time required for the licensing stages and the 
difficulty in navigating the multiple regulatory regimes for 
siting a new plant has already pushed some advanced reactor 
developers to consider building their demonstration/pilot 
plants in competing nations. A risk-based and staged licensing 
framework would be useful for facilitating investment decisions 
at different phases of advanced reactor development projects.
    Question 3. What more could DOE be doing to accelerate the 
development of Small Modular Reactors and demonstrate their 
ability to provide secure and highly reliable power for DOE and 
DOD national security and mission critical activities?
    Response. DOE can help accelerate the development of Small 
Modular Reactors (SMR) through policies and programs that will 
ensure the ability to resolve the First-Of-A-Kind (FOAK) 
engineering challenges that inevitably arise during the design 
and construction of these units.
    New methods of implementing public/private partnerships, 
including assistance with siting, are a good first step. One 
such example exists with the UAMPS/NuScale project under way at 
the INL site. DOE's objectives to support innovative nuclear 
technologies require that these long-term projects are carried 
through to completion. Aggressive support of joint-use research 
and demonstration projects such as the Joint Use Module Project 
(JUMP) hybrid systems proposed for the NuScale reactor also 
helps overcome the financial hurdle for the construction and 
operations of FOAK units. In general, a combination of loan 
guarantees, tax credits, power-purchase agreements, government 
site use permits, and joint research arrangements for enhancing 
U.S. technology leadership are all tools that can be used to 
enable SMR (and advanced reactor) commercialization.
    Question 4. What can the labs do to help make sure that 
Small Modular Reactors can be manufactured and constructed with 
the most advanced methods?
    Response. Expanded use of the Gateway for Accelerated 
Innovation in Nuclear (GAIN) initiative to support advanced 
manufacturing technologies aimed at construction of nuclear 
plant components and systems will help ensure plant 
construction can take advantage of the safety, cost, and 
quality control benefits of modular and modern manufacturing 
techniques.
    Question 5. Industry, the national labs, and the Nuclear 
Regulatory Commission need employees with specialized skill 
sets in nuclear-related disciplines to accomplish their 
missions. Is enough being done to ensure universities produce 
adequate numbers of graduates in these fields?
    Response. DOE and its national laboratories provide support 
for nuclear-related disciplines through various university 
partnership programs and direct support to universities with 
the Nuclear Energy University Program. In the last decade, 
these programs have been very useful in strengthening education 
in related areas, and both the laboratories and industries are 
benefiting from the human resources created under these 
programs. These programs must continue to ensure the transfer 
of critical knowledge and experience from the existing 
workforce, much of whom are nearing retirement, to new 
employees.

       Responses of Kemal Pasamehmetoglu to Additional Questions 
                        from Senator Whitehouse


                    1. emissions free grid by 2050:


    Question 1. Each witness from the hearing discussed 
different clean air technologies that if developed and 
commercialized can reduce our emissions footprint. There is 
international agreement that CCUS and other renewable 
technologies can play a role in helping us cut emissions 
consistent with meeting our 2C targets, in a way that is 
sustainable and economically sound.
    Why are your labs prioritizing research in clean energy 
technologies like this?
    Response. The scenarios analyzed under the 2C targets show 
that a single technology will not be sufficient to achieve the 
goals. An optimized combination of all the technologies, 
including CCUS and nuclear energy, will be needed. The 
economics and timing associated with the technology maturity 
will determine the relative contributions of these technologies 
to greenhouse gas reduction as we move forward. As such, the 
laboratories are working across the spectrum of these 
technologies, and not necessarily picking winners at this stage 
of the research.
    Question 2. What role will advanced nuclear and carbon 
capture and utilization play in helping us meet our climate 
targets and having an emissions free grid by 2050?
    Response. Both advanced nuclear and to a lesser extent, 
CCUS technologies will have a major role in achieving an 
emissions-free grid by 2050. Past and ongoing investments into 
the development of advanced nuclear technologies have laid the 
groundwork for the final stages of technology development and 
demonstration in the near term. These investments will help 
ensure that commercial-scale deployment is feasible as the bulk 
of the current light water reactor fleet begins to shut down as 
we approach 2050. The economics and timing associated with the 
technology maturity will determine the relative contributions 
of these technologies to greenhouse gas reduction as we move 
forward.
    Question 3. Dr. Pasamehmetoglu in your testimony you said 
the stalemate on dealing with our nation's nuclear waste is 
more political than technical.
    Can you elaborate on what is holding us back from dealing 
with our nation's waste stockpile?
    Response. Extensive national and international studies 
indicate that we can engineer storage and disposal facilities 
to isolate used nuclear fuel and nuclear waste from the 
environment for many thousands of years. Engineering features 
depend on the choice of the repository location, but feasible 
solutions have been developed for a Yucca Mountain-like 
repository, salt formation repositories such as the Waste 
Isolation Pilot Plant (WIPP) in New Mexico, clay or granite 
repositories that have been studied abroad. My statement was 
predicated on our experience to date, where multiple Federal, 
State and local jurisdictions are involved in every aspect of 
evaluating, identifying, constructing and operating the sites. 
Such multi-layered, overlapping jurisdictions mean that any 
project, regardless of technical merit, can be effectively 
blocked or delayed at any stage through combinations of 
emotionbased `not-in-my-backyard' activism and focused legal 
actions. Additionally, the long-term sustained effort needed to 
advance these projects is often derailed as a result of changes 
in political climate.
    Question 4. Do you think there is value to working to 
develop advanced reactor concepts that can reuse our spent 
nuclear fuel? What are the biggest barriers for advancing these 
types of advanced reactor concepts? What role can these 
advanced concepts play in addressing our waste stockpile?
    Response. Advanced reactor concepts that can reuse spent 
nuclear fuel have value in two key areas: (1) the ability to 
extract more useful energy from existing inventories of spent 
fuel with minimal processing (e.g., molten salt reactors) and 
(2) the ability of some advanced fast reactor technologies to 
eliminate the longest-lived transuranic elements from the waste 
stream can greatly reduce the complexity, size, and cost of the 
needed final disposal sites. The biggest barriers for advancing 
these reactor concepts are similar to those for advanced 
technologies in general, as mentioned above. As mentioned here, 
these concepts can play a significant role in reducing the 
volume and long-term radiotoxicity of waste for final 
disposition. At present, recycling technologies are not being 
pursued in the U.S. at commercial scale because of the 
economics of the associated reactors and recycling facilities. 
Recycling concepts exist with both improved economics and 
reduced environmental impact. Continued development and 
demonstration in this area will be beneficial for transitioning 
into a cost-effective recycling economy with the right kinds of 
reactors and with reduced environmental impact.
    Question 5. Dr. Pasamehmetoglu, during the hearing several 
modeling tools used in nuclear testing and development were 
discussed, including CASL and the Virtual Environment for 
Reactor Development. It was also noted that next-generation 
materials that can withstand higher temperature and radiation 
environments are being developed and tested through computer 
modeling.
    How accurate are these modeling tools?
    Response. The capabilities of newer modeling platforms is 
expanding at a pace that closely follows the continuing 
advancements in high-performance computing technology, and it 
will continue to grow. Advances in computation, numerical 
analysis, and fundamental material science allow us to model 
phenomena with accuracy that was not possible even a decade 
ago. However, these multi-scale and multi-physics modeling 
tools need to be validated against experimental data. To make 
the tools truly predictive, novel multi-scale phenomenological 
experimental techniques are being used, and the data support 
the validation efforts. In some areas, these tools are already 
making a difference in the way we design fuels and additional, 
focused experiments to accelerate the development process 
(e.g., BISON/MARMOT fuel modeling code). Other areas of physics 
codes are catching up very rapidly as well. I believe that 
within a decade, a paradigm shift will occur in the way we use 
these predictive codes in accelerating the advancement of 
nuclear energy technologies.
    Question 6. Is there a role for computer model simulations 
in the regulatory approval and licensing of advanced reactors?
    Response. Computer model simulations have and will continue 
to have a role in the licensing of advanced reactors as 
modeling systems are developed and validated to simulate the 
many advanced concepts. As each new modeling system is tested 
with the appropriate level of experimental validation, 
regulatory and licensing authorities can begin to take 
advantage of these models to accelerate deployment of the 
technologies. Multi-scale, multi-physics codes designed to 
reduce uncertainty propagation will be very beneficial for 
developing risk-informed regulatory and licensing frameworks 
that will define adequate safety margins without excessive 
cumulative conservatism.

    Senator Capito. Thank you. Thank you.
    Thank you all very much.
    Normally, I would begin the questioning, but I am going to 
yield to Senator Ernst. She has other obligations.
    So, Senator Ernst, if you want to start us off.
    Senator Ernst. Thank you, Chairman Capito. I appreciate 
that.
    And thanks to our panelists as well.
    As some of you know on this panel, Ames Laboratory at Iowa 
State University is home to the Critical Materials Institute, 
where the mission is to come up with materials that solve 
energy challenges related to clean energy. CMI focuses on five 
critical rare earths and two near-critical materials. Rare 
earths materials and other critical materials play a vital role 
in many modern, clean energy technologies, such as our wind 
turbines, solar panels, electric vehicles, and energy efficient 
lighting. Ames Lab has also done work in nuclear materials.
    The Critical Materials Institute partners with four 
national laboratories, two of which are represented here today, 
so thank you very much.
    And I would like to ask both gentlemen from the labs today, 
in your opinion, what sort of material development is needed to 
advance the next generation of nuclear reactors?
    Mr. Khaleel, if we can start with you, please.
    Mr. Khaleel. Sure, Senator. I think, you know, for the next 
generation of reactors, one needs materials, as Dr. Kemal 
mentioned, that can actually survive harsh environments at high 
temperatures. So the national labs, broadly speaking, really 
have these capabilities in terms of advancing new materials, 
and also new manufacturing technologies where some of the parts 
can actually be born both certified and qualified. So we can 
reduce the costs and reduce prototyping in these kind of 
technologies.
    Senator Ernst. So, very important work for the labs, 
correct?
    Mr. Khaleel. Absolutely. Absolutely.
    Senator Ernst. Yes. Thank you.
    Yes, please.
    Mr. Pasamehmetoglu. As I have indicated, most of these 
advanced reactors would like to operate at higher temperatures 
for efficiency purposes, and, also, trying to make the reactors 
more and more compact requires that it has to be resistant to 
higher radiation damage. So the type of materials that we need 
to design for the future need to be able to operate in those 
harsh environments. Typically, we have the technologies to be 
able to design materials like that. The issue is always it 
takes a long time to qualify those materials and get them for 
commercial use, so a big part of the research that the national 
laboratories are conducting, including modeling and simulation, 
is to see how we can accelerate that qualification process and 
bring them from concept to commercialization faster.
    Senator Ernst. Very good. And it is truly a cooperative 
effort between all of those labs, then, as well.
    Mr. Pasamehmetoglu. That is correct.
    Senator Ernst. Thank you very much.
    Mr. Bohlen, I understand that Lawrence Livermore National 
Laboratory is working with Iowa State University on an effort 
to convert forestry waste to biofuels. Can you tell me just a 
little more about this and how that partnership with Iowa State 
is going?
    Mr. Bohlen. Yes, ma'am. Thank you, Senator. It is a great 
partnership and it is funded by the California Energy 
Commission. And it is not an insignificant investment by the 
State; it is almost $7 million.
    It is a partnership that grew out of the State's need to 
deal with the hundreds of thousands of trees that died during 
the 7-year drought. And there is a delicate balance between 
ecosystem health and fire health, and a not insignificant 
amount of the carbon emissions from the State come from forest 
fires. So there is a fast paralysis, so it is a process that 
involves heat, and can be conducted very rapidly, to convert 
forest waste, and that is everything from sawdust to trees that 
are pulled from the forests, into a biofuel.
    And Iowa State has a process that can be delivered on two 
skids, essentially tractor trailer containers, that are 
delivered. The entire process is there. We are partnering with 
Sierra Pacific, as a forest manager, and we provide the 
lifecycle analysis to actually demonstrate that there is true 
carbon savings and the carbon pathways is a negative carbon 
pathway.
    So it is a really great example of the labs working with 
universities, working with private industry to solve a very 
significant problem, and it is funded by the California Energy 
Commission.
    Senator Ernst. That is fantastic. And I love to see that 
there is so much collaboration amongst so many groups out 
there, so thank you for your contributions.
    To all of you, thank you very much.
    Thank you, Ms. Chair.
    Senator Capito. Thank you.
    Senator Whitehouse. Thank you, Chairman.
    Since Iowa State has been mentioned, let me reference an 
Iowa State University professor who recently told a United 
Nations conference that climate change was already affecting 
Iowa farmers. ``This isn't just about the distant future,'' he 
said. Iowa State has published extensive research, one report 
titled ``Global Warming: The Impact of Climate Change on Global 
Agriculture.''
    And Iowa State has a prestigious Leopold Center that, to 
quote them, views climate change not merely as ``warming, but 
as a worsening, destabilization of the planet's environmental 
systems.'' Sounds pretty serious. And it warns that it will 
create aggravated and unpredictable risk that will challenge 
the security of our agricultural and biological systems.
    Iowa State's Leopold Center concludes, ``The scientific 
evidence is clear that the magnitude of the changes ahead are 
greater, the rate much faster, and the duration of climatic 
destabilization will last much longer than once thought.''
    And Iowa State University is not unique. If we go to our 
Chairman's University of Wyoming, you would find the University 
of Wyoming Center for Environmental Hydrology and Geophysics 
reporting that many of the most pressing issues facing the 
western United States hinge on the fate and transport of water 
and its response to diverse disturbances, including climate 
change.
    University of Wyoming scientists are publishing articles on 
the effects of projected climate change on forest fires' 
sustainability. The University of Wyoming is awarding 
university grants to study the effects of climate change on 
pollinators, on water flow, on beaver habitat, and on white 
bark pine growth. And, indeed, the University of Wyoming even 
has its own University of Wyoming Climate Action Plan 
committing the University to reduce its carbon footprint, to 
expand climate research, and to demonstrate leadership as a 
charter member of the American College and University 
President's Climate Commitment.
    If you go to West Virginia, which has, as I said, not much 
coast, but serious concerns about rains and flooding, the West 
Virginia University Mountaineers have a Mountain Hydrology 
Laboratory which tells us climate change has important 
implications for management of freshwater resources, which 
include that the highlands region in the central Appalachian 
Mountains is expected to, to use their phrase, ``wet up.'' 
Warmer air carries more moisture, leading to what West Virginia 
University is calling this intensification of the water cycle. 
The laboratory warns that the implications of this 
intensification are immense. And, of course, West Virginia has 
seen rain-driven flooding.
    West Virginia University's Wildlife Conservation Lab 
publishes regularly on climate change effects, and one of West 
Virginia University's climate scientists, Professor Hessl, has 
been recognized by West Virginia University as West Virginia 
University's Benedum Distinguished Scholar.
    Hard to believe this isn't serious when these recognitions 
are going out.
    West Virginia University even sends people all the way to 
China to study climate change.
    And, of course, our distinguished national laboratories 
appear to be unanimous in the view that climate science is 
serious.
    I would ask, for the record, to put in a presentation that 
Oak Ridge National Laboratory put together through its Climate 
Change Science Institution.
    Senator Capito. Without objection.
    Senator Whitehouse. And it is called Climate Change Science 
Institution Overview.
    [The referenced information follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
  
    
    Senator Whitehouse. So it is nice to have scientists back 
here in the panel again, and I think every single one of the 
institutions here has a demonstrated record of understanding 
that climate change is serious and that it is significantly 
manmade, and that its consequences are going to be very 
impactful if we don't get ahead of it by dealing with the 
carbon dioxide that is at the heart of the problem.
    So I will close with a question for the record to all of 
you. I have been up to Saskatchewan and I have seen the amino 
rain technology, basically pumping exhaust through an amino fog 
to extract carbon dioxide. It is working and it is being 
compensated with oil extraction.
    I have been out to Shenandoah, Iowa to see the ethanol 
plant where they are extracting algae from the waste stream 
using both waste heat, wastewater, and exhaust to feed algae, 
which then have marketable uses.
    I have not been to Iceland, but I am familiar that they 
have a geologic sequestration facility there where they are 
pumping carbon dioxide into the ground, which has a geological 
formation in which the carbon dioxide actually turns to rock 
down there, so it is fully and thoroughly sequestered.
    And, finally, that in Switzerland there is a direct air 
capture facility. It is not taken out of the waste stream, it 
is taken out of the air, but it is powered by waste heat. And, 
in return, what they get is carbon dioxide that then can be 
compressed, put into tanks and sold into the commercial gas 
stream.
    If there are other technologies, I would love to get your 
answers in writing as to what the other technologies are, with 
an evaluation of how promising they are.
    And, Mr. Bohlen, if you could focus particularly on the 
ocean technologies, that would be of great interest to me.
    But my 5 minutes has expired, so let me leave it at that. I 
will have other questions for the record, as well.
    This is a very impressive and distinguished panel, and I 
thank the Chairman for bringing them in.
    Chairman Capito. Thank you. Thank you.
    Senator Inhofe.
    Senator Whitehouse. I even have a few bits on the 
University of Oklahoma, but I ran out of time.
    Senator Inhofe. No, I have some good ones from the 
University of Oklahoma, but since you brought it up, let me 
just make one comment about it. Nobody questions that climate 
has always changed; all evidence, all scriptural evidence, all 
archaeological evidence. We all understand that.
    But I also would quote another great scientist, Richard 
Lindzen, with MIT, who said regulating CO<INF>2</INF> is a 
bureaucrat's dream. If you control climate, you control life.
    So, back in 1995 was my first year here in the U.S. Senate, 
and I was on this Committee, and at that time I actually 
chaired it. It was called then, I guess it still is, Clean Air 
and Nuclear Subcommittee. And at that time we had gone, I 
think, 12 years, 12 years without having any kind of a hearing 
on the NRC. Of course, we immediately got involved in that and 
kind of revived them, because you can't do that with any 
bureaucracy; you have to stay on top of it. So we did, and we 
have been very much interested.
    It is interesting, because that is the only area where I 
think that Senator Whitehouse and I agree, that nuclear is so 
incredibly important for us to have in the mix.
    Now, last month there is a magazine, an article in the 
Business Insider, published, article detailing seven different 
ways the United States is falling behind when it comes to 
nuclear power technology. Some of you may be familiar with 
this, and I would ask that this be part of the record at this 
time.
    And while we are correcting the dependency problem that we 
had actually with the shale revolution in oil and gas, we are 
still increasing our dependency in other areas. Of course, one 
is importing uranium from Russia and purchasing heavy water 
from Iran. The United States can't afford to lose ground to 
countries like Russia, Iran, China, and other countries.
    I would like just to ask you guys, particularly from the 
labs, what you think about this and why it is that we cannot 
get back in a position where we--I understand that we have 
actually not had heavy water here since 1996 and have been 
importing uranium from Russia, about 20 percent, I think, of 
our mix right now is imported from Russia.
    Does that sound right to you, either one of you?
    Mr. Pasamehmetoglu. Yes, sir.
    Senator Inhofe. OK. Now, what can we do to--I am concerned 
about that as a national security issue. I am concerned about 
that for other reasons other than just advancing without 
creating a problem in trying to get back in a leadership 
position in nuclear energy. What can we do about those two 
importations apparently that are still prevalent today?
    Mr. Pasamehmetoglu. Senator, part of the uranium 
importation was to reduce the stockpile of weapon-usable 
uranium and down blending it. So it was, in terms of national 
security, I believe it was beneficial. However, as we look to 
the future, those advanced reactor concepts that I have 
mentioned, quite a few of them require enrichment higher than 
what we are capable of doing today. The standard light water 
reactors use 5 percent enrichment, and all our enrichment 
capabilities, commercial enrichment capabilities are limited by 
5 percent. But the liquid metal coal reactors, as well as those 
high temperature reactors, will require enrichment up to 20 
percent.
    So, at some point, if we are serious about advancing those 
technologies and taking the leadership in those technologies 
globally again, we have to look at the enrichment issue and the 
uranium issue very seriously.
    Senator Inhofe. Are we doing that now? Are we looking at 
it? Are we trying to make it advancements? Because when I see 
that other countries now are passing us up, as pointed out in 
this article, in technology, and you say that we need to be 
looking at that, are we in the process now of trying----
    Mr. Pasamehmetoglu. Department of Energy is looking at the 
options on how we can start supplying uranium enriched higher 
than 5 percent.
    Senator Inhofe. Well, you know, for some of them we talk 
about, yes, we need to get back to where we have everything 
renewable and all that. I go back to my State of Oklahoma and 
they ask questions there they don't ask in Washington, like, 
you know, if we are dependent upon fossil fuel and nuclear for 
89 percent of the power it takes to run this machine called 
America and you do away with both of those, how do you run the 
machine? And the answer is you can't.
    What do you think, Mr. Khaleel? Are you optimistic that we 
are going to be able to do something in the future to put us 
back getting into technologies at least on an even keel with 
some of our competitors out there?
    Mr. Khaleel. I think so, Senator. You know, currently, the 
Department of Energy is pursuing these advanced reactors, non-
light water reactors. And as Dr. Kemal mentioned earlier, there 
is a variety of concepts, and I think that really is an 
important thing, you know, in terms of our security, but also 
our competitiveness.
    Senator Inhofe. Yes.
    Mr. Khaleel. Likewise, modular reactors, they are really a 
good and a cheap way to trying to get to deliver nuclear power, 
sustained power in really a modular way, but also situated to 
the local conditions. So these two kind of approaches and 
activities are fairly important.
    We also have enrichment, uranium enrichment activities at 
Oak Ridge National Lab. So I think we are pursuing multiple 
tracks.
    I think an important thing is really to deal with the whole 
balance between finances and licensing, and also to bring 
modeling and simulation capabilities to accelerate the cycle 
for licensing in the U.S. I think that really is an important 
aspect that needs to come through, and I think most of our 
national labs have tremendous capabilities in modeling and 
simulation. These are high-fidelity predictive tools that can 
actually enable us to do things in a rapid way, and I think 
that is critical.
    Senator Inhofe. Well, I appreciate that. We had a Commerce 
Committee meeting at the same time that this is going on, so I 
missed the opening statements, and some of these things, I am 
sure, were covered. But that has been my interest for a long 
time, to make sure that we get back. I look at countries like 
France, and the percentage of their total energy provided from 
nuclear, and I can't see, looking into the future, how we are 
going to be able to do it without becoming more aggressive than 
we have been, more competitive in technology, too. Very good.
    Thank you, Madam Chairman.
    Senator Capito. Thank you, Senator.
    Senator Carper.
    Senator Carper. Thanks, Madam Chair.
    When I read through your testimony in preparation for 
today's hearing, I thought to myself, boy, what an all-star 
lineup. And you have not disappointed. This is an exceptional 
panel and we welcome each of you.
    Dr. Bohlen, you mentioned in your testimony something that 
always commands the attention for a lot of us on the East Coast 
who have coastal beaches, and that was the possibility of 
somehow addressing beach replenishment and using CO<INF>2</INF> 
to bind up part of that process. You mentioned that was 
embryonic at this point in time. I will ask you a question for 
the record. I will ask you to go into that in a little more 
detail. But my ears perked up when you said those words, so 
thanks for that.
    I hosted a visit yesterday, along with Senator Coons and 
our Congresswoman Lisa Rochester, in Delaware, a visit from our 
Secretary of Agriculture, who is a recovering Governor like I 
am, and he spent a big part of the day with us at the Delaware 
State Fair. We pulled together in the morning a roundtable that 
included 30, 40 people from the agricultural sector in our 
State. And we raise more soybeans, I think, in Sussex County, 
Delaware than any county in America. I think we raise more lima 
beans than any county in America. We raise more chickens there 
than any county in America. So Delaware, which most people 
don't think of as a big ag State, really is, and we punch above 
our weight, if you will.
    One of our farmers who was there raises a lot of peaches 
and other fruits, but also raises corn. But he spoke 
passionately, and surprisingly to me, about the threat that 
climate change poses to his business, his farm business. Among 
the crops that he raises, he raises peaches, and he said when 
the blossoms on his peach tree bloom in the middle of February, 
that is not good. And he said for years he could almost set the 
clock by when they are going to start harvesting particular 
commodities in the middle part of August, and that date 
continues to move up, up, up, up, up.
    A lot of times, in my State, the real threat from climate 
change is sea level rise. But I just would share with you his 
words, and it makes all the more important some of what you are 
sharing with us today.
    The Administration, current Administration, often uses what 
I believe is questionable information to defend the President's 
decision to walk away from the Paris Climate Agreement. For 
example, the Administration claims that the U.S. has made great 
strides in reducing greenhouse gas emissions over the past 14 
years without government intervention. I think a closer look at 
that suggests that his comment ignores the facts on the ground.
    I want to make three points, then ask a question.
    First of all, the Federal Government has been regulating 
greenhouse gas emissions for our largest source, that is, 
mobile sources, for some 8 years. Other clean air regulations 
targeting sulfur dioxide, nitrogen oxide, and air toxic 
emissions from our Nation's power plants have also had a co-
benefit, as you know, of reducing greenhouse gas emissions.
    Second point, the Federal Government has incentivized 
investment in clean energy through the tax code for decades. I 
submitted a statement for the record. In that statement I 
mention that the Federal Government has had a long-term 
production tax credit for alternative means of natural gas, 
which helps lead to the natural gas boom that we enjoy today. 
And then, of course, there are the tax credits that the 
Congress has provided for a whole host of clean energy 
technologies in the Recovery Act of 2009, and tax-extended 
packages in 2012, 2014, and 2015.
    Third point, then I will ask my question. The Federal 
Government has funded research on a host of clean energy 
technologies that have made these technologies cheaper and 
easier to develop and deploy.
    Here is my question. How important have Federal Government 
actions been over the last decade in providing what I describe 
as a nurturing environment for clean energy investments and job 
creation, and what more can our Federal Government do and 
should we be doing?
    Our West Virginia compadre, I will ask you to lead off. Dr. 
Anderson.
    Mr. Anderson. Senator, thank you for the question. 
Investments in technology development through the Department of 
Energy, both in individual clean energy technologies like wind, 
solar, biomass, geothermal, etcetera, have certainly played an 
important role in deployment, as have the ITC and PTCs. In the 
fossil energy space, I would say that investments in carbon 
capture and sequestration technologies, as well as advanced 
power generation cycles have certainly created an environment 
in which technologies are being developed. However, we are at 
the stage now where, if you consider technology readiness level 
and system readiness level, the next generation of deployment 
investments come at integrating the systems together. We have 
seen some challenges in terms of certain components of systems, 
but we are at the stage where large-scale carbon capture and 
sequestration technologies are ready to be developed and 
deployed, but there are some challenges at the system level, 
and that takes considerably large investments in dollars to 
deploy large-scale demonstration projects, and that is the 
hurdle we see next.
    Senator Carper. Thanks very much.
    Again, the question, what more can the Federal Government 
be doing, should be doing?
    Please.
    Mr. Begger. I guess, Madam Chairman, Senator Carper, you 
know, I think the Federal Government can do a couple things. 
One is we need to impose sort of realistic timelines. From 
utility industry perspective, when you looked at the deadlines 
of the Clean Power Plan, 5 to 10 years was just literally an 
impossibility to develop technologies, commercialize it, and 
employ that. So we need to understand what is a realistic 
timeline to deploy these technologies.
    We also need adequate resources. You know, if you look at I 
guess the mark for the energy and water appropriations fossil 
energy account, it is roughly about $500 million a year, all to 
do some of these larger scale technologies, Petra Nova, 
boundary dams and these things. Those are billion dollar 
plusses. So the real challenge is starting to integrate these 
different systems.
    We understand that they work really well in small 
capabilities on their own, but when you start plugging them 
together, that is what the great unknown is. So we do need to 
provide those resources to scale things up.
    And then also certainty. A power plant, utility that goes 
and builds a new coal-fired power plant today has a 60-year 
depreciation schedule, so I have been asked questions like why 
are we not seeing a new rush of coal-fired power plants with 
this Administration. It is like, well, a four-or 8-year 
Presidential administration doesn't provide the regulatory 
certainty moving forward. So the sooner that the Federal 
Government can sort of provide that clarity and understanding 
of what they are going to do, I think that is going to give 
utilities comfort in adopting new technologies and moving 
forward.
    Senator Carper. All right, thanks.
    My time has expired, Madam Chair, but if we have a second 
round, could I finish my question?
    Senator Capito. OK. That would be fine. Thank you.
    You kind of hit on the question that I wanted to go to 
initially. Senator Whitehouse mentioned that we just 
introduced, with 23 colleagues, a bill to reauthorize and 
expand the 45Q tax credit for carbon capture utilization and 
storage. We had strange bed fellows on that. Not only are 
Senator Whitehouse and I on this Committee and some of our 
fundamentals at odds with one another who we are representing, 
Senator Barrasso at the same time, and we were all on this bill 
to try to figure out the best way to move forward with this 
broader commercialization of the CCUS, and you sort of alluded 
to this, Mr. Begger did.
    So I would like to ask Dr. Anderson, and you alluded to 
this as well in your opening statement. You mentioned that New 
Source Review was a regulatory burden to commercialization. My 
question is how much of the challenge is financial; how much is 
regulatory. I don't know if you want to expand on that a little 
bit, between the financial and regulatory. That is what I am 
trying to get to, as Mr. Begger said, to get the challenge at 
the system level.
    Mr. Anderson. Right. And I agree with what Mr. Begger 
mentioned in terms of system integration, as well as one of the 
major challenges, as I mentioned in my statement, in terms of 
New Source Review. In terms of the financial challenges, it is 
that certainty in the regulatory environment to be able to 
create a consistent demand side pool for the development of 
technologies. So I think that the 45Q is a great step in that 
direction, as long as we can create a playing field in terms of 
putting, whether it is a price on carbon, in terms of evening 
up the playing field between investment tax credits, production 
tax credits, and things like 45Q. If we can have a system in 
which it is much more predictable for the investment community, 
it would provide that opportunity to develop and deploy 
technologies.
    Senator Capito. Does anybody else have a comment on that, 
the regulatory versus financial? Yes, Dr. Khaleel.
    Mr. Khaleel. There was a study in 2013 that surveyed over 
260 experts in the carbon capture and sequestration area to 
learn about obstacles and challenges. The No. 1 obstacle was 
cost; No. 2, legislation; and I believe No. 4, regulation. So I 
think, you know, to decouple, really, the issue of finance and 
regulation is a little difficult, but as technologies move 
forward, then there is a need, a certainty to license these 
technologies, and that becomes very important. The uncertainty 
in the licensing process drives some of the finances and makes 
it really difficult. So I think it is really important to deal 
with the risk associated with licensing.
    And, at the same time, when you look at costs, to drive 
costs down, really, one needs to do a more R&D in that space 
and at the same time maybe, you know, a role that the 
Government may play in accelerating some of the deployment. 
That will be actually the case when one looks at the nuclear 
area, the modular reactors. But I would argue it may be also 
applicable in the carbon capture situation.
    Senator Capito. OK, let me ask a question on the 
utilization issue. No, let me backtrack here. I want to ask 
about utilization, but I want to ask about this ambient air.
    Many of you mentioned the research going on removing carbon 
from ambient air. So, to me, that means not something at the 
power plant's source, but actually out, I don't know, on the 
highway or wherever that would happen to be. Am I correct in 
assuming that is what ambient air, that is what mean, just in 
general?
    So I guess what I am asking is do we see this as the new 
frontier, this ambient air carbon removal? And again it comes 
back to, then, the utilization portion of it.
    Dr. Bohlen, did you mention that in your comments?
    Mr. Bohlen. I did mention that, Senator, and there are 
already commercial entities that are extracting CO<INF>2</INF> 
from the air. Climeworks is a company in Switzerland. They are 
extracting CO<INF>2</INF> from the air.
    Senator Capito. What are they doing with it when they 
capture it?
    Mr. Bohlen. They are compressing it and selling it, 
actually, to greenhouses to encourage plant growth in very, 
very large, many, many acre-sized greenhouses.
    Senator Capito. OK.
    Mr. Bohlen. So it is a very leading edge technology. The 
Climeworks executives feel that they can make money at $200 a 
ton CO<INF>2</INF> , I believe is the number. So it is not yet 
going to spread commercially worldwide, but it is a leading 
technology. People are working very hard to reduce the risk and 
uncertainty of how this is done, because it turns out that it 
is the CO<INF>2</INF> itself that may actually become a more 
valuable product as we learn about catalysts and so forth to 
convert it into feedstocks that we currently now make out of 
petroleum.
    Senator Capito. Well, thank you. I have always sort of had 
this vision. Being a coal State, obviously it is a big concern 
of mine that CO<INF>2</INF> is going to have that value, that 
there is something either on the cutting edge of being 
researched and developed at the end of the supply chain that 
all of a sudden it becomes that looping back in.
    So is WVU doing research on the ambient air?
    Then I will turn to the next Senator.
    Mr. Anderson. Not directly on the ambient air. As Dr. 
Bohlen mentioned, in terms of the cost, it is higher 
particularly because it is much more dilute than ambient, so it 
suffers from thermodynamics in terms of trying to concentrate 
it. It is like we have a lot of gold in the ocean and we could 
concentrate it, but it is probably better to find a gold mine.
    So when you have a point source that is a coal burning 
power plant with a much, much more concentrated stream of 
CO<INF>2</INF> , it is more efficient and lower cost to do it 
that way.
    Senator Capito. And probably the best place to start, in 
any event.
    Mr. Anderson. It would be the lowest hanging fruit, for 
sure.
    Senator Capito. Senator Markey?
    Senator Markey. Thank you, Madam Chair.
    Today's hearing is about the development of advanced clean 
energy technologies, and we should be talking about the next 
frontiers in the clean energy revolution, but we also have to 
continue to support the revolution that is underway right now. 
The testimony submitted by our witnesses focuses on carbon 
capture and nuclear technology, and I am very open-minded when 
it comes to climate change solutions.
    When Henry Waxman and I constructed the Waxman-Markey bill 
that passed the House of Representatives in 2009, we actually 
included $200 billion for carbon capture and sequestration in 
that piece of legislation. Now, it was part of a comprehensive 
bill that dealt with all aspects of climate change, but it was 
clearly an ingredient. And the bill, as well, was endorsed by 
the Nuclear Energy Institute. So clearly a low carbon goal 
would establish incentives for development of advanced 
technologies. And we actually included $75 billion for advanced 
energy technologies in that bill as well.
    But the fact is that we are already in the middle of the 
clean energy revolution. In 2005, the United States installed 
just 79 megawatts of solar across the entire Country. Last year 
we installed nearly 200 times that amount, 14,000 megawatts. We 
now have more than 40,000 megawatts of solar in the United 
States. We have more than 80,000 megawatts of wind capacity 
installed in the United States, including 8,200 new megawatts 
installed last year. On reliability, in Iowa, they are now 
producing, many days, 40 percent of all of their electricity 
from wind; it was very good reliability. So obviously 
tremendous breakthroughs have been made on that front. And a 
little more than a decade ago wind and solar generated less 
than 1 percent of all of our electricity. It is now 7 to 8 
percent of all of our electricity. And if it continues at the 
existing pace, no further breakthroughs, it would be 30 percent 
of all of our electricity by the year 2030.
    So that is the good news. There is a tremendous revolution 
that is taking place, and that is without any breakthroughs in 
advanced wind or solar technology.
    Today there are 360,000 Americans employed in the wind and 
solar industries. By 2020 there will be 500,000. And here is a 
number that is absolutely astounding: last year, the solar 
industry created as many jobs in 1 year as exists in the entire 
coal mining industry, 50,000 new jobs. So that is a huge, huge 
development. And they are good paying jobs. We have blue collar 
workers, 137,000 electricians and roofers were working last 
year in the solar industry in our Country. Just absolutely an 
incredible revolution, a blue collar energy job creation 
revolution that has taken place.
    The same thing is true over on the wind side of these 
issues. We have 102,000 people working in wind; 25,000 of them 
are in manufacturing, 35,000 of them are in construction, 
transportation, and sales. There are 10,000 wind engineers just 
maintaining those devices across the Country, with a starting 
salary of $50,000 in our Country.
    So there is a tremendous revolution that has absolutely 
been unleashed.
    Dr. Bohlen, you included a chart in your written testimony 
showing how carbon capture and sequestration compares to other 
technologies in terms of unsubsidized costs. The chart shows 
onshore wind electricity has an all-in cost of as little as $32 
per megawatt hour and solar has an all-in cost of as little as 
$46 per megawatt hour. Electricity generated from natural gas 
with carbon capture, the cheapest CCS option costs more than 
$69 per megawatt hour, while electricity generated from coal 
with CCS costs more than $80 per megawatt hour.
    That is why, in my opinion, utility executives are looking 
more toward alternatives. Could you talk about that in terms of 
how the free market is actually moving utility executive 
decisions toward cleaner energy sources and the lower costs, 
which increasingly are in the renewable sector?
    Mr. Bohlen. Yes, Senator. First of all, I want to emphasize 
I am a scientist, not an economist, and the figures that I 
quoted were from an analysis by those who are expert in that, 
Lazard. But others do it, too.
    What is clear is that costs are rapidly declining. And an 
important role that the national labs play in that is that they 
help de-risk the very, very early stage technologies and then 
bring the risks down through a variety of approaches; new 
materials, new manufacturing approaches, and modeling and 
simulation that greatly reduce the risk and make these new 
technologies viable in the commercial sector.
    For example, the natural gas revolution in this Country was 
founded on $200 million of Federal investment, and that led to 
industry being able to take that over. I know George Mitchell, 
from Mitchell Energy, likes to talk about the role of industry. 
But it was preceded by some significant Federal investment in 
hydraulic fracturing and wells, long horizontals.
    So costs are coming down. Natural gas is less expensive per 
kilowatt hour, in general, than are other technologies; wind is 
less expensive, and so forth. So the economics are driving this 
and decisions by power companies.
    Senator Markey. May I continue for just one more question, 
please, Madam Chair?
    Senator Capito. One more.
    Senator Markey. OK, thank you, Madam Chair.
    Senator Whitehouse and I have introduced legislation to 
extend the tax credits for offshore wind through 2025. The 
entire tax break expires for wind at the end of 2019. And 
offshore wind is clearly a huge potential job creation 
opportunity with very low greenhouse gas, non-existing 
greenhouse gas production. Could you talk a little bit about 
that, the offshore wind revolution, and what you think that 
might portend for the future, as well, and the kind of focus 
that we should have upon that as well, Mr. Bohlen, if you 
could?
    Mr. Bohlen. Without moving into the policy issues, Senator, 
what I can say is we have examples around the world where 
offshore wind has been incredibly impactful. Denmark, for 
example, has very, very significant offshore wind, and they are 
moving toward powering their entire country in that way. So the 
answer is there is enormous potential, and how that develops 
will be a matter of State policies and so forth.
    Senator Markey. From my perspective, the same winds that 
brought the pilgrims to Massachusetts can also power our 
industry and our homes. The winds, as they have been mapped by 
the Department of Interior, indicate that off of our coastline 
is the Saudi Arabia of wind. So to the extent to which there is 
a movement toward new generations of electrical generation 
capacity, I think that wind has to be solidly in that category, 
and any tax breaks, any incentives that are created should 
include them as well, because the potential is vast.
    Thank you, Madam Chair.
    Senator Capito. Thank you. Thank you very much.
    I can't help it, I have to say in terms of wind and 
Massachusetts, remember, we have to site the windmills, and, as 
I recall, over the last several years that has been quite a 
controversial thing off the coast.
    I would like to----
    Senator Markey. If I may.
    Senator Capito. No, I am going to go on. I gave you some 
extra time. I am allowed to make a comment here.
    On solar, let's talk about solar, because my understanding 
is that to manufacture solar efficiently, you need to have rare 
earth metals. I think was it Dr. Khaleel, did you mention, or 
maybe Dr. Anderson, the rare earth? Are we are doing some of 
this at WVU? Could you talk about that a lot? Because I think 
that would help solar, that would help coal, and that would 
help the areas of coal ash and other residuals where these rare 
earth minerals can be found.
    Mr. Anderson. Excuse me, Senator. Currently in the U.S., we 
import the vast majority, almost 100 percent, of our rare earth 
elements, and we do have some closed amount at the Mountain 
Pass Mine at the border of California and Nevada has a 
significant amount of light rare earth. However, what we found 
in the acid mine drainage sludge in the central and northern 
Appalachian coal fields is that we have a concentration of 
heavy rare earth elements, and we have been working on and 
developed a technology at WVU to be able to extract those heavy 
rare earths from the acid mine drainage sludge, so going out to 
remediated coal sites and extracting the rare earths that go 
into heavy permanent magnets that support the wind industry, as 
well as the materials for the construction of solar panels.
    Senator Capito. And for those things we call cell phones, 
as well.
    Mr. Anderson. Absolutely.
    Senator Capito. Right.
    Yes, Dr. Khaleel, did you want to add to that?
    Mr. Khaleel. Yes, Senator. So, you know, as the Senator 
earlier mentioned, there is an institute called the Critical 
Materials Institute, jointly done by multiple national labs, 
including Oak Ridge, and the objective is really to look at how 
we separate these elements from, say, you know, coal or other 
materials.
    Rare earth elements are very critical for various 
applications, and the underpinning technologies are really 
separation technologies, so you need it for solar, you need it 
for magnets, for lighting, for multiple applications.
    And the national labs, broadly speaking, have capabilities 
in separation that can be applied to these problems and also, 
you know, really help us in not relying on foreign sources for 
these elements.
    Senator Capito. I think that is a great distinction on the 
security issue. If, all of a sudden, the supply dried up, that 
would cause great difficulties, I think, across many industries 
in this Country.
    Let me ask you just a more global question because I have 
you all here. We have the Lawrence Livermore National Lab, we 
have the Oak Ridge National Lab, and Idaho National Laboratory. 
I hope I know the answer to this question because we are 
talking about some of the same technologies, whether it is 
nuclear or clean coal or carbon capture. Do you all have a 
regular coordination where you are coordinating your research 
working together? I am assuming this is not the first time you 
have met. What kinds of efficiencies of scales? We are doing a 
lot at the National Energy Technology Lab in Morgantown as 
well.
    Who wants to step up to that question?
    Mr. Bohlen. It is interesting that question comes, Senator, 
as our chief research officers of all of the laboratories meet 
here today for a 2-day meeting. They meet regularly. We work 
across the laboratory system very, very effectively. Yes, we 
compete. Yes, we think we have great technologies. But we also 
partner much more vigorously than people know because we just 
work together and get stuff done.
    Senator Capito. Dr. Khaleel?
    Mr. Khaleel. Senator, the DOE Office of Science has looked 
at all of the national labs and looked at their core 
capabilities, and based on critical mass in terms of the staff, 
critical mass in terms of facilities and equipment, the labs 
are assigned core capabilities. So in multiple areas you see 
some labs have the same core capability and they coordinate.
    I think like Steve mentioned, we have also the national lab 
directors, you know, tomorrow meeting together. We also have 
bilateral work between the national labs. For example, we 
coordinate with the National Renewable Energy Lab. They are the 
renewable energy lab and we do a lot of work in energy 
efficiency. So we have a lot of complimentary capabilities.
    For example, the Senator talked about offshore wind. One of 
the basic and fundamental capabilities, really advanced 
manufacturing, especially of composite materials. We use, at 
Oak Ridge, 3-D printing to enable that to happen, and we work 
with IRNL. Likewise, we coordinate with Idaho National Lab in 
the area of nuclear.
    So you see a lot of these partnerships to leverage 
facilities and staff and capabilities.
    Senator Capito. Dr. K, did you have a comment on that?
    Mr. Pasamehmetoglu. Yes. I will comment on the nuclear 
piece.
    As I indicated before, the nuclear research capabilities 
are expensive and they are not all located in one place, so 
they are spread across the DOE complex and multiple national 
laboratories. So just by virtue of that we have to collaborate 
and we have to complement each other, and the recent vehicle--
yes, in the past there was competition, but the recent vehicle 
for that collaboration has been that initiative that I 
mentioned, the GAIN Initiative, that basically ties the 
laboratories together.
    Senator Capito. Thank you.
    Senator Carper.
    Senator Carper. Thank you.
    Folks, just to refresh your memories, I had asked a 
question about the role of the Federal Government with respect 
to clean energy technologies, and I had asked how important has 
the Federal Government's role been in the last decade or so in 
providing a nurturing environment for clean energy investments 
and job creation related to those. And then I asked what more 
can the Federal Government be doing or should be doing in this 
regard, and we got as far as you, Mr. Bohlen.
    If you could just take a shot at that. Not too long, but 
just take a shot at that for me. What more could we be doing, 
should we be doing in this vein?
    Mr. Bohlen. Yes, Senator. What we know from looking at 
experience is that investment in these technologies at the 
national laboratories, with their university partners and 
industry partners, lowers the risk and lowers the costs so that 
they become commercially competitive. So in the wisdom of the 
Congress and the Federal investment apparatus, whatever they 
want to invest in, they know they will get lower risks and more 
rapid commercialization by investing. This has been 
demonstrated over and over and over again.
    Senator Carper. Thank you very much.
    Dr. Khaleel, also known as Moe?
    Mr. Khaleel. The first thing is for the Government to have 
stronger support for the national user facilities, the science 
user facilities and the applied program user facilities, as 
these facilities attract elite scientists from universities and 
industry to work on challenging problems with the talent at the 
national labs. I think that is fairly important.
    The other thing is really to have more focus on early stage 
R&D, but also mid-stage and later stage, and to open the 
national lab as we are doing it today, but more deliberate to 
work with the industry, the U.S. industry, to help them in 
buying down some of the risk, especially as we have the best 
capabilities to deal with early stage and mid-stage R&D.
    Senator Carper. All right, thank you.
    I also want to ask Mr. Pasamehmetoglu. I know that wasn't 
very well done, but I just wanted to stay here to try to 
pronounce your name. Do you have any nicknames? What do your 
friends call you?
    Mr. Pasamehmetoglu. Well, my friends call me Kemal.
    Senator Carper. All right. All right, Kemal it is. Take it 
away. Same question. What more could we be doing, should we be 
doing?
    Mr. Pasamehmetoglu. Well, I think the issue we need to look 
at, if you are really serious to take over, to at least 
maintain the technology leadership and regain the industrial 
leadership in nuclear energy, and especially in the advanced 
nuclear systems, I think it is important as a Nation for us to 
look at a different way of public-private partnership because a 
lot of these technologies have large promises to cut cost and 
to be a lot more efficient; however, jumping over the hump of a 
first-of-a-kind unit is not something that the private sector 
alone can do. So, in my opinion, a new model of public-private 
partnership to get us through that initial hump and get those 
things to end of a kind where they are economically 
competitive, and then the private sector can take over and run 
with it.
    Senator Carper. I want to go back, before I conclude, to 
where I started, and that was to talk about the visit of 
Secretary of Agriculture, Sonny Perdue, former Governor of 
Georgia, to Delaware yesterday, and it was a wonderful, 
wonderful visit that focused on what we are doing in our ag 
economy and how we can strengthen it further. And I mentioned 
the one farmer who talked about what the effect of climate 
change is having on his livelihood, and he was very concerned 
about it.
    Delaware is the lowest lying State in America, and we see 
the vestiges of sea level rise every day. We had huge storms in 
the last couple days, but even throughout the year we see 
vestiges of what is happening to our coastline and to our 
State, and we are not the only State.
    The work that you all are doing, and your colleagues are 
doing, is just enormously important as we deal with what is a 
reality for us. I have always looked at adversity and tried to 
find opportunity in that adversity. That is Einstein. And I 
think there is a chance for us to draw on that again in this 
vein as well, to look at adversity, too much CO<INF>2</INF> in 
our air, find opportunity.
    Thank you for helping us find it.
    Senator Capito. Senator Markey, second round, 5 minutes.
    Senator Markey. OK. Thank you, Madam Chair.
    Boston is the fourth most vulnerable city in the United 
States to climate change, and it is the eighth most vulnerable 
city in the world in terms of economic impact, so we are very 
conscious about this issue; it has tremendous implications for 
our well-being.
    Just coming back to the colloquy that I was having with the 
Chairwoman earlier, there was a problem with the siting process 
for wind off of the coast of Massachusetts, but what has 
happened now is that pursuant to the 2005 Energy Act, although 
the Bush administration did not act on it, they should have, 
the Department of Interior has now mapped off of the coast of 
Massachusetts, in our Federal waters, where it is acceptable to 
deploy wind. And the State of Massachusetts has now established 
its goal of deploying 1,600 megawatts of offshore wind over the 
next 10 years. And now New York is following and the Department 
of Interior is continuing its mapping off of the coast in 
Federal waters that gives more certainty, economically, to the 
development of wind technology.
    So the objective should be, from my perspective, to ensure 
that there is a level playing field as we are going forward. 
Yes, we need to help with carbon capture and sequestration. 
Yes, we need to look at the Nuclear Regulatory Commission and 
its regulations. But we also have to make sure that the 
barriers to entry for offshore wind or for the continuing 
development of solar are also taken into account so that it is 
a race. And as we know right now, this race does have wind and 
solar now sprinting out toward a minimum of 30 percent of all 
electrical generation.
    And, by the way, if you add in the 6 percent of all 
electrical generation, which is hydro, by the year 2030, 
because that will not change, and potentially keeping nuclear 
at around 19 percent, we are looking at 55 percent, 56 percent 
of all electricity being non-greenhouse gas emitting within 13 
years in our Country, and that is if wind and solar and other 
renewable technologies don't make any additional breakthroughs, 
if we don't have breakthroughs in battery technologies that can 
contribute to the reliability of using renewables in our 
national grid. And I would bet on a breakthrough in battery 
technology because of the vast fortune to whichever individual 
or company makes that breakthrough. They could ultimately 
become the wealthiest company on the planet. So there is a huge 
economic incentive to make that breakthrough as well.
    So I am just basically somebody that wants an all-of-the-
above strategy, truly an all-of-the-above, and it includes 
carbon capture and sequestration for our fossil fuel industry, 
but also extending the tax breaks for wind and solar, ensuring 
that the continued mapping of the coastline continues, because 
that could come into jeopardy in a Trump era Department of 
Interior. But as long as that is in place, then I think we are 
going to be on a pathway to solve the problem.
    So I thank you, Madam Chair, and I thank you for holding 
this very important hearing.
    Senator Capito. Thank you.
    I want to thank the witnesses, and I would like to note 
that the record for the Committee will stay open for 2 weeks, 
and I would ask the witnesses that any written questions that 
were submitted to you, if you could respond in a timely 
fashion, it would be much appreciated.
    Thank you all for coming.
    [Whereupon, at 11:50 a.m. the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    
  
                                 [all]
</pre></body></html>
